OFFICE OF AUDIT
REGION 5
CHICAGO, IL




      Allen Mortgage, Limited Liability Corporation,
   Single Family Housing Mortgage Insurance Program


                  Centennial Park, AZ




2012-CH-1015                               September 30, 2012
                                                        Issue Date: September 30, 2012

                                                        Audit Report Number: 2012-CH-1015




TO:    Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU



FROM: Kelly Anderson, Regional Inspector General for Audit, 5AGA

SUBJECT: Allen Mortgage, LLC, Centennial Park, AZ, Did Not Comply With HUD
         Requirements for Underwriting FHA Loans and Fully Implement Its Quality
         Control Program in Accordance With HUD’s Requirements

    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG), final report of our audit of Allen Mortgage’s Underwriting of FHA-
Insured Loans.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(312) 353-7832.
                                                 September 30, 2012
                                                 Allen Mortgage, LLC, Centennial Park, AZ, Did Not
                                                 Comply With HUD Requirements for Underwriting FHA
                                                 Loans and Fully Implement Its Quality Control Program
                                                 in Accordance With HUD’s Requirements


Highlights
Audit Report 2012-CH-1015


    What We Audited and Why                          What We Found

We audited Allen Mortgage, Limited               Allen Mortgage did not comply with HUD’s
Liability Company, a Federal Housing             regulations, procedures, and instructions in the
Administration (FHA) nonsupervised               underwriting of FHA-insured loans. Specifically, of
lender. We selected Allen Mortgage for           the 73 streamline refinanced loans reviewed, 23 (32
review based on its high default and             percent) contained material underwriting deficiencies. 2
claim rate for the FHA-insured loans             Allen Mortgage also allowed borrowers to (1) skip
sponsored in Region 5. 1 Our objectives          mortgage payments due on their previous loans and (2)
were to determine whether (1) Allen              close their loans without paying settlement costs.
Mortgage complied with HUD’s
regulations, procedures, and instructions        Further, Allen Mortgage (1) did not always ensure that
in the underwriting of FHA-insured               FHA case binders sent to HUD contained complete
loans and (2) its quality control plan, as       and accurate information, (2) provided mortgage
implemented, met HUD’s requirements.             services to borrowers, such as paying their mortgage
                                                 payments, to prevent them from defaulting on their
    What We Recommend                            mortgages within the first six payments. 3 However, it
                                                 sought reimbursement from the borrowers for the
                                                 advanced payment, and (3) did not fully implement its
We recommend that HUD’s Deputy                   quality control program in accordance with HUD’s
Assistant Secretary for Single Family            requirements.
require Allen Mortgage to (1) reimburse
the FHA insurance fund $811,163 for              As a result of the improperly underwritten loans, the
losses incurred on eight loans, and for          risk to FHA’s Mutual Mortgage Insurance Fund was
any future losses for $199,391 in claims         increased by more than $2 million. Additionally, HUD
paid on one loan, (2) indemnify HUD for          lacked assurance that Allen Mortgage acted in the best
11 loans with material underwriting              interests of FHA borrowers. Also, the risk to the
deficiencies, and (3) implement adequate         FHA’s Mutual Mortgage Insurance Fund was
policies and procedures to address the           increased due to the lack of assurance of the accuracy,
issues cited in this audit report.               validity, and completeness of its loan underwriting
                                                 activities.




                                                 2
                                                   A deficiency is considered material when it affects the loan
1
 The region contains of five states: Illinois,   approval decision.
                                                 3
Indiana, Ohio, Michigan, Minnesota, and            Loans that default within the first six payments are considered
Wisconsin.                                       early payment defaults.
                             TABLE OF CONTENTS
Background and Objectives                                                        3

Results of Audit
        Finding 1: Allen Mortgage Did Not Comply With HUD’s Underwriting         4
                   Requirements
        Finding 2: Allen Mortgage Did Not Ensure That It Provided Complete and   11
                   Accurate Information to HUD and Borrowers
        Finding 3: Allen Mortgage Did Not Fully Implement Its Quality Control    15
                   Program in Accordance With HUD Requirements

Scope and Methodology                                                            19

Internal Controls                                                                21

Appendixes
   A.   Schedule of Questioned Costs and Funds To Be Put to Better Use           23
   B.   Auditee Comments and OIG’s Evaluation                                    24
   C.   Summary of Loans With Underwriting Deficiencies                          55
   D.   Summary of Loans With Material Underwriting Deficiencies                 56
   E.   Narratives of Loans With Material Underwriting Deficiencies              57




                                             2
                            BACKGROUND AND OBJECTIVES

The National Housing Act, as amended, established the Federal Housing Administration (FHA), an
organizational unit within the U.S. Department of Housing and Urban Development (HUD).
FHA provides insurance to private lenders against loss on mortgages financing homes. The
basic home mortgage insurance program is authorized under Title II, section 203(b), of the
National Housing Act and governed by regulations in 24 CFR (Code of Federal Regulations)
Part 203. In 1983, HUD implemented the direct endorsement program, which authorizes
approved lenders to underwrite loans without HUD’s prior review and approval.

Allen Mortgage, Limited Liability Company, filed articles of organization pursuant to the laws
of the State of Utah on May 23, 2001. The corporate office is located at 1675 South Berry Knoll
Boulevard, Centennial Park, AZ. Allen Mortgage originates and underwrites loans, then sells the
loans to lending institutions. It funds loans using a warehouse line of credit, on a short-term
basis, until the loans are purchased by investors. Allen Mortgage received approval as a Title II
nonsupervised lender with HUD on August 2, 2001.

For the period October 1, 2007, through September 30, 2009, Allen Mortgage originated 2,205
loans. Of the 2,205 loans, 960 (44 percent) were in default or claim status as of September 2010.
One of Allen Mortgage’s underwriters manually underwrote 2,115 of the 2,205 loans. The
majority of loans originated and sponsored by Allen Mortgage were streamline refinances. 4
Allen Mortgage outsources the quality control of loan production to its contractor, Tena
Companies, Inc.

We selected Allen Mortgage for review based on its high default and claim rate for the FHA-
insured loans sponsored in our region during the period October 1, 2007, through September 30,
2009. For instance, its default and claim rate (the total defaults and claims as a percentage of the
total loans originated for a mortgagee) for loans originated in the State of Michigan was 23.72
percent, which was nearly four times the state average default and claim rate of 6.33 percent.
The audit was part of the activities in our fiscal year 2010 annual audit plan. Our objectives
were to determine whether (1) Allen Mortgage complied with HUD’s regulations, procedures,
and instructions in the underwriting of FHA-insured loans and (2) its quality control plan, as
implemented, met HUD’s requirements.




4
    A streamline refinance is a refinance of an existing FHA insured loan into a new FHA insured loan.

                                                           3
                                    RESULTS OF AUDIT
Finding 1: Allen Mortgage Did Not Comply With HUD’s Underwriting
Requirements
Allen Mortgage did not comply with HUD’s regulations, procedures, and instructions in the
underwriting of FHA-insured loans. Specifically, for 23 of the 73 streamline refinanced loans
reviewed (32 percent), it allowed borrowers to (1) skip mortgage payments due on their previous
loans and (2) close on their loans without paying the amounts due at closing. It also did not always
correctly calculate borrowers’ maximum mortgage amounts or properly determine a borrower’s
eligibility to streamline refinance an existing FHA-insured loan. This noncompliance occurred
because Allen Mortgage failed to exercise due diligence in underwriting the loans and disregarded
HUD’s underwriting requirements. As a result of the improperly underwritten loans, the risk to
FHA’s Mutual Mortgage Insurance Fund was increased by more than $2 million.


    Allen Mortgage Allowed
    Borrowers To Skip Mortgage
    Payments

                  Allen Mortgage allowed borrowers to skip mortgage payments for 17 streamline
                  refinanced loans. For FHA case number 261-9338035, it was unable to provide
                  documentation supporting that the borrowers’ mortgage payments due on March 1
                  and April 1, 2008, were paid before closing on the loan or that the borrower made
                  the payments at closing. The borrowers’ settlement statement revealed that the
                  refinance loan closed on April 29, 2008. HUD prohibits lenders from allowing
                  borrowers to skip payments. A borrower is either to make the payment when it is
                  due or bring the monthly mortgage payment check to settlement.5

                  For FHA case numbers 261-9338035 and 151-8704674, the borrowers were
                  permitted to make mortgage payments that were due at or before closing, using
                  personal credit cards, after their loans had closed and settled. According to HUD’s
                  requirements, delinquent mortgages are not eligible for streamline refinancing until
                  the loan is brought current. 6

    Allen Mortgage Did Not
    Require Borrowers To Pay
    Funds Due at Settlement




5
    HUD Handbook 4155.1, REV-5, paragraph 1-10(E)
6
    HUD Handbook 4155.1, REV-5, paragraph 1-12(D)

                                                    4
                 For nine loans reviewed, Allen Mortgage allowed the borrowers to close their
                 loans without collecting the amounts that were due at settlement. 7 It allowed
                 borrowers to provide personal postdated checks to close on their loans, instead of
                 bringing the required funds to closing.

                 For FHA case number 561-8818240, the borrower’s settlement statement in the
                 FHA case binder indicated that $1,927 was needed to close the loan; however, the
                 loan closed without the borrower making the payment. Allen Mortgage allowed
                 the borrower to provide two checks, dated November 15 and November 30, 2008,
                 that totaled $3,848 to close on the loan, thus exceeding the required amount
                 needed to close identified on the HUD-1 settlement statement in the FHA case
                 binder by more than $1,900. However, the title company’s settlement statement
                 showed that the borrower needed $3,854 to close on the loan. The loan closed on
                 October 27, 2008, and settled on October 31, 2008.

                 Further, in reviewing Allen Mortgage’s financial records, we determined that the
                 borrower’s bank returned the checks because the borrower did not have sufficient
                 funds. Allen Mortgage did not provide additional documentation to support that
                 the borrowers’ checks had cleared for payment. The following table identifies the
                 closing deficiencies for the nine loans.

                                       Loan         HUD-1           Net
                        Case          closing     settlement      payment       Payment          Payment
                       number          date       statement 8     amount 9        date           method

                    151-8681596     4/23/2008       $1,219         $1,219       5/3/2008       Personal check

                    151-8570534     2/19/2008       $1,670         $1,670       3/29/2008      Personal check

                    261-9356573     2/21/2008       $1,112         $1,112       3/3/2008       Personal check
                                                                               11/15/2008;      Two personal
                    561-8818240     10/27/2008      $1,927         $3,848      11/30/2008          checks

                    581-3334641     2/21/2009        $803           $770        3/4/2009       Personal check

                    105-4322752     12/22/2008       $791           $791        1/12/2009      Personal check

                    493-8825894     10/25/2008      $1,263         $1,263      10/31/2008     Personal check
                                                                                               Two personal
                                                                                1/27/2009     checks (less the
                    292-5210194     1/12/2009        $403          $1,743       2/24/2009         refund)

                    491-9528744     5/16/2009        $586           $586        6/20/2009      Personal check



7
  When loans are refinanced, the closing date is the date the borrower signs the loan documentation and the
settlement date is the date that the funds are disbursed to pay off the old loan and create the new loan.
8
  In some cases, the amount collected from the borrower does not correspond with the amount due on the borrower’s
HUD-1 settlement statement (see finding 2).
9
  The net payment amount equals the total amount collected from the borrower(s) minus any amount(s) refunded to
the borrower(s).

                                                       5
                  HUD requires for each transaction that the lender estimate the settlement
                  requirements to determine the cash required to close the mortgage transaction.
                  The difference between the amount of the FHA-insured mortgage, excluding any
                  upfront mortgage insurance premium, and the total cost to acquire the property,
                  including these expenses, determines the cash needed for closing a loan eligible
                  for FHA mortgage insurance. 10 Further, line 303 on the settlement statement
                  must indicate either cash required from the borrower at settlement or cash payable
                  to the borrower at settlement. 11 According to HUD’s requirements, funds can be
                  borrowed for the total required investment as long as satisfactory evidence is
                  provided that the funds are fully secured by investment accounts or real property,
                  other than the property being purchased. An independent third party must provide
                  the borrowed funds. The lender or other interested third party may not provide
                  such funds. 12

     Allen Mortgage Did Not
     Properly Determine a
     Borrower’s Eligibility for
     Streamline Refinancing

                  Allen Mortgage did not properly determine a borrower’s eligibility to streamline
                  refinance an FHA-insured loan. For FHA case number 151-8624264, the primary
                  borrower on the previous loan died in February 2008. The coborrower refinanced
                  and settled the new loan in March 2008, which was less than 1 month after the
                  death of the primary borrower. HUD Handbook 4155.1, REV-5, paragraph 1-
                  12(D.9.b.), states that individuals may be deleted from the title on a streamline
                  refinance only when (1) the assumption of the mortgage not containing a due-on-
                  sale clause occurred more than 6 months previously and the assumptor can
                  document that he or she has made the mortgage payments during this interim
                  period or (2) following an assumption of a mortgage when a due-on-sale clause
                  was not triggered and the assumption or quit-claim of interest occurred more than
                  6 months previously and the assumptor can document that he or she made the
                  mortgage payments during this time.

                  The coborrower did not demonstrate the ability to make mortgage payments for at
                  least 6 months before the loan closed. The coborrower did not make one payment
                  on the previous mortgage on her own before the loan was streamline refinanced.
                  The borrower defaulted on the mortgage, and the property was sold in a
                  preforeclosure sale transaction; therefore, HUD paid a claim in the amount of
                  $55,296. 13



10
   HUD Handbook 4155.1, REV-5, paragraph 1-9
11
   24 CFR Part 3500
12
   HUD Handbook 4155.1, REV-5, paragraph 2-10(D)
13
   A preforeclosure sale is a sale of a property in which the proceeds from selling the property will fall short of the
   balance of debts secured by liens against the property. A notice of default has been recorded against the borrower.

                                                          6
     Allen Miscalculated Borrowers’
     Maximum Mortgage Amounts

                 For three loans, Allen Mortgage overestimated the financing costs or included
                 overdue principal and interest charges in determining borrowers’ mortgage
                 amounts. The three loans were funded in the amount of $399,958 instead of the
                 maximum amount of $398,847. We calculated the maximum mortgage amount
                 for each loan in accordance with HUD requirements. 14 Therefore, these loans
                 exceeded HUD’s maximum mortgage limit by $1,111. The following table
                 identifies the overinsured loans.

                                                                    Maximum            Over-
                              FHA case           Mortgage           mortgage           insured
                              number             amount             amount             amount
                              381-9331530        $166,380           $166,113           $267
                              263-4211541          96,891             96,311            580
                              263-4186532         136,687            136,423            264
                              Totals             $399,958           $398,847           $1,111


     An FHA Borrower Received
     More Than $500 Back at
     Settlement

                 For FHA case number, 562-2087147, Allen Mortgage required the borrower to
                 pay a medical-related judgment as a condition to close; therefore, it included the
                 amount of the judgment as a settlement charge on the borrower’s HUD-1
                 settlement statement. Contrary to HUD’s requirements, after the loan’s
                 settlement, Allen Mortgage provided the borrower with a check that exceeded the
                 $500 cash-back limit to pay off the judgment. 15 The borrower received $688 back
                 at loan closing, which was $188 more than the $500 limit.

     HUD’s Quality Control Review
     Identified Similar Deficiencies

                 In March 2007, HUD’s Quality Assurance Division performed a quality control
                 review of Allen Mortgage and identified similar underwriting deficiencies.
                 According to a letter from HUD, Allen Mortgage loaned or advanced funds to a
                 borrower for closing, as evidenced by a promissory note in the borrower’s loan
                 file. The lender or other interested party may not provide the funds to the


14
   HUD Handbook 4155.1, REV-5, paragraph 1-12(A) and HUD Mortgagee Letter 2005-43 require the maximum
mortgage amount to be calculated as the lesser of (1) the old original mortgage amount plus the upfront mortgage
insurance premium, or (2) the existing debt calculation.
15
   HUD Handbook 4155.1, REV-5, paragraph 1-12 and HUD Mortgagee Letter 2005-43.

                                                        7
                    borrower to close the loan. HUD initially sought indemnification for the loan.
                    However, the identified deficiencies were resolved.

     Incorrect Underwriters’
     Certifications Were Submitted
     to HUD

                    We reviewed the certifications for the 22 loans with material underwriting
                    deficiencies for accuracy. Allen Mortgage’s direct endorsement underwriters
                    incorrectly certified that due diligence was used in underwriting the loans. Under
                    HUD’s direct endorsement program, direct endorsement underwriters certify to
                    the integrity of the data for automated or manually underwritten loans; the
                    underwriter certifies that due diligence was used in underwriting the loans.

                    The Program Fraud Civil Remedies Act of 1986 (31 U.S.C. (United States Code)
                    3801) provides Federal agencies, which are the victims of false, fictitious, and
                    fraudulent claims and statements, with an administrative remedy to (1)
                    recompense such agencies for losses resulting from such claims and statements;
                    (2) permit administrative proceedings to be brought against persons who make,
                    present, or submit such claims and statements; and (3) deter the making,
                    presenting, and submitting of such claims and statements in the future.

     Conclusion

                    According to FHA requirements, a lender is required to establish that a borrower
                    has the ability and the willingness to repay the mortgage debt, which should be
                    based on sound underwriting principles consistent with the guidelines, rules, and
                    regulations denoted in HUD Handbook 4155.1, REV-5. Additionally, the lender
                    must support its decision to approve the mortgage with sufficient documentation.
                    Regulations at 24 CFR 203.5(c) require a direct endorsement lender to exercise
                    the same level of care it would exercise in obtaining and verifying information for
                    a loan in which the lender would be entirely dependent on the property as security
                    to protect its investment.

                    Allen Mortgage failed to follow FHA requirements in underwriting 23 of the 73
                    loans reviewed (32 percent). 16 This noncompliance occurred because Allen
                    Mortgage disregarded HUD’s requirements and its underwriters did not exercise
                    due diligence in underwriting the loans. According to Allen Mortgage, its loan
                    officers or processors calculated borrowers’ payoff amounts as though the
                    borrowers’ mortgage payments were up to date, including the payment due the
                    month of closing. The underwriters would then review and approve the
                    calculated amounts. This calculated amount would be the amount disclosed on
                    borrowers’ HUD-1 settlement statements.

16
     See appendix E for narratives of loans with material deficiencies.

                                                             8
                    Allen Mortgage’s loan officers or processors obtained borrowers’ final mortgage
                    payoff amounts after the loans closed. If borrowers did not make the payments
                    due on their prior mortgage, including the one due for the month of closing,
                    borrowers’ HUD-1 settlement statements and loan payoff amounts would be
                    inaccurate. According to Allen Mortgage’s president, the underwriter would
                    manually calculate the maximum mortgage amount allowed on a streamline
                    refinance. After the loans closed, the underwriter finalized and approved the
                    borrowers’ mortgage credit analysis worksheets and the direct endorsement
                    approval.

                    Additionally, the president said that the loan officers or processors
                    mathematically calculated borrowers’ payoff amounts as though the borrowers
                    had made all payments due on their existing mortgages, including the payment
                    due for the month the refinanced loan was expected to close. Allen Mortgage
                    obtained updated payoff statements for the borrowers at a later time. If a
                    borrower did not make the payments due on the existing loan as expected, that
                    borrower’s settlement statement and the loan payoff amount would be inaccurate.
                    Consequently, Allen Mortgage would have to update the borrower’s payoff
                    amount due on the existing loan and on the settlement statement after the
                    borrower’s closing date. Allen Mortgage would then seek reimbursement from
                    the borrower for the skipped mortgage payments.

                    Allen Mortgage believed that it was helping borrowers by allowing them to skip
                    mortgage payments and provide postdated checks or use credit cards to pay their
                    settlement costs. However, borrowers’ financial obligations were increased
                    because the lender actively sought repayment from them after their loans closed.
                    In some instances, Allen Mortgage referred borrowers that were unable to repay
                    the advanced funds to collection agencies.

                    As a result of the improperly underwritten loans, the risk to FHA’s Mutual
                    Mortgage Insurance Fund was increased by more than $2 million. See appendices
                    C and D for summaries of loans’ deficiencies and associated costs.

     Recommendations

                    We recommend that HUD’s Deputy Assistant Secretary for Single Family require
                    Allen Mortgage to

                    1A. Reimburse the FHA insurance fund $811,163 for the losses incurred on eight
                        loans since the associated properties have been sold.17

                    1B. Reimburse HUD for a $55,296 claim paid for FHA case number 151-8624264
                        since the associated property was sold during a preforeclosure sale.

17
     Loss on the sale of the property identified in HUD’s Single Family Data Warehouse system

                                                          9
                 1C. Reimburse the FHA insurance fund for any future losses from $199,361 in
                     claims paid on one loan once the associated properties have been sold.

                 1D. Indemnify HUD for the 11 loans with material underwriting deficiencies. The
                     estimated loss to HUD, based on its default loss rate of 66 percent of the
                     unpaid principal balance, is $1,000,042 This will result in funds to be put to
                     better use (other savings) by the FHA insurance fund not having to pay
                     future claims on the loans if the loans default.

                 1E. Buy down the three loans that were overinsured by $1,111 and the one loan in
                     which the borrower received $188 in excess funds back from closing ($1,111 +
                     $188 = $1,299).

                 1F. Implement adequate policies and procedures to ensure compliance with
                     HUD’s underwriting requirements.

                 We also recommend HUD’s Associate General Counsel for Program Enforcement

                 1G. Determine legal sufficiency and if legally sufficient, pursue remedies under the
                     Program Fraud Civil Remedies Act against Allen Mortgage, its principals, or
                     both for incorrectly certifying that due diligence was exercised during the
                     underwriting of 21 loans.18




18
 Two improperly underwritten loans were paid in full; therefore, they no longer pose a risk to FHA insurance fund.
As a result, the number of loans decreased from 23 to 21.

                                                       10
Finding 2: Allen Mortgage Did Not Ensure That It Provided Complete
and Accurate Information to HUD and Borrowers
Allen Mortgage did not ensure that it provided complete and accurate information to HUD.
Specifically, it did not ensure that it included borrowers’ final settlement statements in the FHA
case binders submitted to HUD. It also collected funds from borrowers that were not disclosed
on the HUD-1 settlement statements and paid borrowers’ mortgage payments after their loans
settled and were sold to investors. The problems occurred because Allen Mortgage lacked
adequate procedures and controls to ensure that it complied with HUD’s and other Federal
requirements regarding loan originations. As a result, HUD lacked assurance that Allen
Mortgage acted in the best interests of FHA borrowers and did not have complete and accurate
information on borrowers’ FHA streamline refinances to aid in monitoring Allen Mortgage for
compliance with its requirements.


 Borrowers’ Settlement
 Statements in the FHA Case
 Binders Were Not Final
 Documents

                  Allen Mortgage did not always ensure that it included borrowers’ final HUD-1
                  settlement statements in the FHA case binders sent to HUD. For 6 of the 73 loans
                  reviewed (8 percent), the amount of funds borrowers needed to close on the
                  settlement statements in Allen Mortgage’s files increased from the amounts
                  disclosed on the settlement statements in the FHA case binders. Allen Mortgage
                  changed the borrowers’ settlement statements after the loans closed and the
                  borrowers’ rescission periods19 had expired. However, the borrowers’ settlement
                  statements in the FHA case binders did not reflect the changes. For instance, for
                  FHA case number 581-2884051, the borrower’s settlement statement in the FHA
                  case binder showed that the borrower did not pay or receive funds at closing.
                  However, according to the settlement statement in the borrower’s loan file, the
                  borrower needed $1,326 to close. The loan closed on October 27, 2007, yet Allen
                  Mortgage collected a personal check from the borrower in the amount $1,567 on
                  November 27, 2007, a month after the loan closed.

                  We contacted one of the six borrowers and were informed that his signed settlement
                  statement showed that funds were not needed to close. However, at closing, he was
                  required to pay off a credit card and sign a promissory note agreeing to make the last
                  payment due under his previous mortgage. He mentioned that he was unaware that
                  he had to make these payments. Additionally, the borrower’s good faith estimate in
                  Allen Mortgage’s loan files did not include these payments as part of the borrower’s

19
   Title 12, Part 226—Truth in Lending, states that the borrower may exercise the right to cancel the refinance
transaction within 3 business days.

                                                         11
                  settlement charges. Further, Allen Mortgage sent the borrower a letter indicating
                  that it would send the borrower’s account to a collection agency if the payments
                  were not received.

                  The borrower’s settlement statement in Allen Mortgage’s files showed that the
                  borrower needed to pay $742 at closing, which was the amount of the borrower’s
                  mortgage payment under the streamline refinanced loan. HUD requires for each
                  transaction that the lender estimate the settlement requirements to determine the
                  cash required to close the mortgage transaction. 20 Further, RESPA requires that
                  the HUD-1 settlement statement shows the actual settlement costs of the loan
                  transaction.

     Allen Mortgage Collected
     Funds From Borrowers When
     Settlement Statements Did Not
     Identify That Cash Was Needed
     To Close

                  Allen Mortgage collected cash from borrowers to close on their loans, which was
                  not disclosed on the borrowers’ settlement statements. For 7 of the 73 loans (10
                  percent), the settlement statements in Allen Mortgage’s files and the FHA case
                  binder did not identify that borrowers needed cash to close. However, Allen
                  Mortgage collected more than $6,100 from the borrowers as follows:
                                                                       Amount
                            Loan        Borrower’s        Loan        collected
             FHA case      closing      cash due at    settlement       from      Payment      Payment
             number         date        settlement        date        borrower      date       method
           262-1731385     4/14/08        ($500)        4/30/08          $820     6/22/08    Credit card
                                                                                              Personal
           292-4835727     12/20/07         $0         12/26/07        $1,149     1/3/08        check
                                                                                              Personal
           011-5930328     7/11/08        ($400)           7/31/08      $781      8/15/08       check
                                                                                             Electronic
           491-9085385     12/22/07         $0             12/31/07     $917      4/7/08        check
                                                                                              Personal
           483-4074768     3/13/09          $0             3/18/09     $887       4/10/09       check
           291-3657749     3/18/08          $0             3/30/08     $1,004      4/7/08    Credit card
           581-2985846     3/20/08          $0             3/31/08      $554      4/24/08     Unknown
              Total                                                    $6,112

                  The Real Estate Settlement Procedures Act (RESPA), enacted in 24 CFR Part
                  3500, appendix A, states that the settlement agent shall complete the settlement
                  statement to itemize all charges imposed upon the borrower and the seller by the
                  lender and all sales commissions, whether to be paid at settlement or outside of

20
     HUD Handbook 4155.1, REV-5, paragraph 1-9

                                                      12
             settlement, and any other charges which either the borrower or the seller will pay
             for at settlement. Further, RESPA requires that the HUD-1 settlement statement
             shows the actual settlement costs of the loan transaction. Where it is not the
             practice that the borrower and the seller both attend the settlement, the HUD-1
             should be mailed or delivered as soon as practicable after settlement.

Allen Provided Credit
Counseling to Borrowers After
Loans Were Sold


             Allen Mortgage provided credit counseling services to borrowers after their loans
             were sold. In reviewing Allen Mortgage’s loan files, we determined that its loan
             officers made monthly mortgage payments on behalf of two borrowers as follows:

             •   For FHA case number 482-3900230, the borrower’s loan closed on March 25,
                 2008. The first payment on the loan was due May 1, 2008. The borrower’s
                 loan file contained a letter from one of Allen Mortgage’s loan officers, stating
                 that he had identified that the borrower was having difficulty making
                 mortgage payments. Therefore, he made the borrower’s July and August
                 mortgage payments in accordance with Allen Mortgage’s credit counseling
                 program that lasted for 6 months after loans closed.

             •   For FHA case number 581-3168167, the borrower’s loan closed on September
                 11, 2008. The borrower’s first payment on the new mortgage was due
                 November 1, 2008. According to documentation in the borrower’s loan file,
                 Allen Mortgage made the borrower’s mortgage payment that was due
                 December 1, 2008, on February 25, 2009. The payment prevented the
                 borrower’s mortgage from being 90 days late. We confirmed that one of
                 Allen Mortgage’s loan officers made the borrower’s mortgage payment.

Conclusion


             Allen Mortgage did not ensure that it provided complete and accurate information
             to HUD. This condition occurred because Allen Mortgage lacked adequate
             procedures and controls to ensure that it complied with HUD’s and other Federal
             requirements regarding loan originations. As previously mentioned, Allen
             Mortgage’s underwriter finalized and approved borrowers’ mortgage credit
             analysis worksheets and the direct endorsement approval after loans closed;
             therefore, if changes to borrowers’ settlement charges were needed, it had to seek
             repayment from the borrowers.

             Additionally, Allen Mortgage’s president acknowledged that the lender performed
             credit counseling for borrowers that were having trouble making their mortgage
             payments. It helped a lot of borrowers, but many of them were not able to repay

                                              13
                  Allen Mortgage for making mortgage payments on their behalf. According to the
                  president, Allen Mortgage had discontinued its credit counseling program. He
                  acknowledged that Allen Mortgage started the credit counseling program because
                  its compare ratio 21 was high.

                  As a result of the conditions described above, HUD lacked assurance that Allen
                  Mortgage acted in the best interests of FHA borrowers and did not have complete
                  and accurate information on borrowers’ FHA streamline refinances to aid in
                  monitoring Allen Mortgage for compliance with its requirements.

     Recommendations


                  We recommend that HUD’s Deputy Assistant Secretary for Single Family require
                  Allen Mortgage to

                  2A.      Provide borrowers’ final settlement statements for inclusion in HUD’s FHA
                           case binders for HUD to effectively monitor for lender compliance.

                  2B.      Implement adequate procedures and controls to ensure that HUD and
                           borrowers receive all final documentation in connection with the loans.

                  2C.      Discontinue advancing funds to borrowers to pay funds needed to settle their
                           loans.

                  We also recommend that HUD’s Deputy Assistant Secretary for Single Family

                  2D.      Take appropriate administrative action against Allen Mortgage, its
                           principals, or both for the issues cited in this report once the affirmative civil
                           enforcement action cited in recommendation 1G is completed.

                  2E.      Ensure that Allen Mortgage has discontinued its credit counseling program,
                           in particular making mortgage payments for FHA borrowers and then
                           seeking reimbursement.




21
  According to HUD’s Neighborhood Watch system, the compare ratio measures the percentage of seriously
delinquent loans and claims divided by the percentage of seriously delinquent loans and claims for a particular area.

                                                         14
Finding 3: Allen Mortgage Did Not Fully Implement Its Quality Control
Program in Accordance With HUD Requirements
Allen Mortgage did not implement its quality control program in accordance with HUD’s
requirements. Specifically, it did not conduct quality control reviews in accordance with HUD’s
requirements, and its written quality control plan initially did not contain all of the necessary
provisions. The problems occurred because Allen Mortgage disregarded HUD’s requirements
and did not monitor its contractor to ensure compliance with HUD’s requirements. As a result, it
increased the risk to FHA’s Mutual Mortgage Insurance Fund due to the lack of assurance of the
accuracy, validity, and completeness of its loan underwriting activities.



     Allen Mortgage Did Not Ensure
     That Its Contractor-Performed
     Routine Quality Control
     Reviews Were Performed in a
     Timely Manner

                  Allen Mortgage did not ensure that routine quality control reviews were
                  performed in a timely manner. Its contractor performed 192 routine quality
                  control loan reviews during our audit period, October 1, 2007, to September 30,
                  2009. Of the 192 reviews, 147 (77 percent) were not performed in a timely
                  manner. Allen Mortgage’s contractor reviewed the loans an average of 162 days
                  after the loans closed. According to HUD’s requirements, loans must be reviewed
                  within 90 days from the end of the month in which the loan closed. This
                  requirement is intended to ensure that problems left undetected before closing are
                  identified as early after closing as possible. 22 Further, according to Allen
                  Mortgage’s quality control plan, loans were to be reviewed and reported to its
                  senior management no later than 90 days from the loans’ origination dates and
                  randomly selected by the quality control contractor for audit within 30 days after
                  loan closing.

                  According to documentation provided by the contractor, Allen Mortgage failed to
                  provide the loans to the contractor in a timely manner. Of the 192 routine
                  reviews, 117 were received by the contractor more than 90 days after the end of
                  the month in which the loan closed. Further, a lender contracting out any part of
                  its quality control function is responsible for ensuring that the outside source is
                  meeting HUD’s requirements. 23 Therefore, Allen Mortgage was responsible for
                  ensuring the reviews were performed on time.

22
     HUD Handbook 4060.1, REV-2, paragraph 7-6(A)
23
     HUD Handbook 4060.1, REV-2, paragraph 7-3(B)

                                                    15
     Routine Reviews Were Not
     Always Performed for the
     Correct Period

                Allen Mortgage did not ensure that its contractor performed routine quality
                control reviews in accordance with HUD’s requirements. HUD requires that
                lenders closing more than 15 loans per month perform quality control reviews at
                least monthly and address 1 month’s activity. 24 However, Allen Mortgage’s
                contractor performed quarterly quality control reviews on FHA-insured loans.
                Therefore, the reviews addressed loan production for each quarter instead of 1
                month’s activity with the exception of November and December 2007.
                Additionally, the contractor did not perform quality control reviews on the loans
                that were originated during October 2007.

     The Sample Size of Routine
     Reviews Was Not Always
     Sufficient

                Allen Mortgage did not ensure that its contractor used the appropriate sample size
                in determining the number of loans for review in accordance with HUD’s
                requirements and its own plan. The contractor failed to review 10 percent of the
                loans that were originated and as previously mentioned, did not perform quality
                control reviews on loans that were originated in October 2007. HUD requires that
                lenders that originate or underwrite 3,500 or fewer FHA loans per year review 10
                percent of the FHA loans they originate. 25

                Additionally, Allen Mortgage’s contractor did not review loans that were denied.
                HUD requires lenders to review a minimum of 10 percent the total number of
                loans that were denied. 26 Further, Allen Mortgage’s plan stated that a minimum
                of 10 percent of all rejected loans were to be reviewed and evidence that senior
                staff concurred with the rejection was to be documented in the loan file.

     Early Payment Defaults Were
     Not Always Reviewed

                Allen Mortgage did not ensure that its contractor reviewed all early payment defaults
                as required by HUD. HUD requires lenders to review all loans going into default
                within the first six payments, in addition to the loans selected for routine quality
                control reviews. Early payment defaults are defined as loans that become 60 days
                past due within the first six payments.27
24
   HUD Handbook 4060.1, REV-2, paragraph 7-6(B)
25
   HUD Handbook 4060.1, REV-2, paragraph 7-6(C)
26
   HUD Handbook 4060.1, REV-2, paragraph 7-8(A)
27
   HUD Handbook 4060.1, REV-2, paragraph 7-6(D)

                                                  16
                     Using HUD’s Single Family Data Warehouse system, we identified 212 loans that
                     were originated or sponsored by Allen Mortgage that were 60 days past due within
                     the first six payments, which were early payment defaults. These 212 loans closed
                     from September 2007 to October 2009. However of the 212 loans, 115 (55 percent)
                     had not been reviewed as of June 30, 2010.

     Allen Mortgage’s Quality
     Control Plan Did Not Meet
     HUD’s Requirements

                     Allen Mortgage’s quality control plan, as written, did not meet HUD’s
                     requirements. The plan was in effect during our audit period, October 1, 2007,
                     through September 30, 2009. Specifically, in accordance with HUD Handbook
                     4060.1, REV-2, the plan did not include provisions that 28

                         •    The office does not employ or have a contract with anyone currently under
                              debarment or suspension, subject to a limited denial of participation, or
                              otherwise restricted from participation in HUD-FHA programs. Lenders
                              must periodically check their employee list, at least semiannually (7-3L).
                         •    Reports, which identify deficiencies, are provided to senior management
                              within 1 month of completion, and management must take prompt action
                              on all material findings. The final report must identify actions taken, a
                              timetable, and follow-up activities (7-3I).
                         •    The lender reports findings of fraud or serious violations to the appropriate
                              HUD Homeownership Center within 60 days of initial discovery via the
                              Lender Reporting feature in the Neighborhood Watch Early Warning
                              System (7-3J).
                         •    Lenders must identify patterns of early defaults by location, program, and
                              loan characteristic. Lenders must identify commonalities among
                              participants in the mortgage origination process to learn the extent of their
                              involvement in problem cases. Loans involving appraisers, loan officers,
                              processors, underwriters, etc., who have been associated with problems,
                              must be included in the review sample (7-5C).
                         •    The quality control sample selection includes loans from all loan officers,
                              loan processors, and underwriters and from roster appraisers, real estate
                              agents or companies, and builders with whom they do significant business
                              (7-6C).
                         •    Loans, which go into default within the first six payments, are submitted
                              for quality control review. Loans which are 60 days past due within the
                              first six payments are early payment defaults (7-6D).
                     During the audit, Allen Mortgage updated its quality control plan. We reviewed
                     the updated plan and determined that it complied with HUD’s requirements.

28
     All of the provisions missing from Allen Mortgage’s quality control plan are not listed in this report.

                                                             17
Conclusion


             Allen Mortgage did not fully implement its quality control program in accordance
             with HUD’s requirements. The problems occurred because Allen Mortgage
             disregarded HUD’s requirements for quality control. Additionally, it did not
             monitor its contractor to ensure that quality control reviews were performed in
             accordance with HUD’s requirements. Allen Mortgage did not always provide
             loan files for quality control review in a timely manner. Consequently, the loans
             were not always reviewed in accordance HUD’s 90-day requirement.

Recommendations


             We recommend that HUD’s Deputy Assistant Secretary for Single Family require
             Allen Mortgage to

             3A.    Implement policies and procedures to ensure that quality control reviews
                    of FHA-insured loans are performed in accordance with HUD’s
                    requirements and its revised plan, which includes but is not limited to the
                    performance of routine and early payment default quality control reviews
                    and rejected or cancelled loans.




                                             18
                             SCOPE AND METHODOLOGY

We performed our audit work between August 2010 and April 2011. We conducted our audit
work at Allen Mortgage’s office in Centennial Park, AZ, and HUD Chicago regional office. The
audit covered the period October 1, 2007, to September 30, 2009, but was expanded as
necessary.

To accomplish our objectives, we reviewed applicable HUD handbooks, regulations, mortgagee
letters, and other reports and policies related to FHA’s mortgage insurance program. Further, we
reviewed Allen Mortgage’s quality control plan, electronic loan files, and quality control
documentation. We interviewed Allen Mortgage’s current and former employees, its quality
control contractor, and HUD staff. We also contacted borrowers to confirm information in their
loan files.

Using HUD’s data maintained in its Single Family Data Warehouse system, we determined that
Allen Mortgage sponsored 89 loans that went to claim in 30 months or fewer during the period
October 1, 2007, through September 30, 2009. Of those 89 loans, 21 were for properties located
in Region 5. We selected all 21 for review to determine whether Allen Mortgage complied with
HUD’s underwriting requirements. All of the 21 loans reviewed were streamline refinances.

We assessed the reliability of the computerized data and determined that the information was
sufficiently reliable for our purposes. For instance, in reviewing Allen Mortgage’s quality
control program, we compared loans we identified in HUD’s Single Family Data Warehouse
system as early payment default loans to determine the universe of 212 loans that defaulted
within the first six payments. We corroborated the information with other HUD systems, such as
HUD’s Neighborhood Watch system. Further, Allen Mortgage uses HUD’s Neighborhood
Watch system to determine the loans that result in early payment defaults; therefore, the same
data were used by both the Office of Inspector General (OIG) and Allen Mortgage. Then we
compared hardcopy documentation of loans reviewed by Allen Mortgage’s contractor to the
universe we determined and verified two loans reviewed were not early payment defaults in
HUD’s Neighborhood Watch system. As a result, only 97 of 99 reviews were completed out of
the 212 loans we identified as early payment default.

However, to reach our conclusions for underwriting, we relied on hardcopy documentation
maintained in HUD’s FHA case binders and imaged hardcopy documentation maintained in
Allen Mortgage’s electronic files.

Further, using quality control review reports provided by Allen Mortgage and its quality control
contractor, we identified 271 loans which were subjected to quality control reviews. Of the 271
reviews, 183 loans 29 were routine quality control reviews, and the remaining 88 loans were early
payment defaults. Using a stratified attribute sample, we identified the universe of 271, an

29
  Allen Mortgage’s contractor reviewed 192 loans routinely for quality control. Nine loans were reviewed as part
of a routine and early payment default review; thus increasing the number from 183 to 192 loans reviewed routinely
for quality control. Although Allen Mortgage’s contractor reviewed 271 loans, 9 loans were reviewed twice.
Therefore, it performed 280 quality control reviews during our audit period.

                                                       19
assumed failure rate of 50 percent, a confidence interval of 90 percent, and a precision of 10
percent. We systematically selected a statistical sample originating from a randomly selected
start point generated by the RAT STATS 2007 statistical sampling software application. The
sample consisted of 54 loans which were subjected to quality control reviews by Allen
Mortgage’s quality control contractor. We selected this sample to review whether the quality
control reviews were conducted in accordance with HUD’s requirements regarding the review of
underwriting, document reverification, and condition clearance and closing. Two of the fifty-
four loans were previously selected as a part of our underwriting review universe of 21 loans in
claim status, thus reducing the total number of loans reviewed from 75 to 73.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               20
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

               •      Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

               •      Reliability of financial reporting – Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

               •      Compliance with applicable laws and regulations – Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 21
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

             •      Allen Mortgage did not always comply with HUD’s requirements when
                    underwriting FHA-insured loans (see finding 1).

             •      Allen Mortgage did not ensure that it provided complete and accurate
                    information to HUD and borrowers (see finding 2).

             •      Allen Mortgage’s quality control program did not meet HUD’s requirements
                    (see finding 3).




                                              22
                                     APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE


         Recommendation                                                Funds to be put
             number              Ineligible 1/        Unsupported 2/   to better use 3/
               1A                 $811,163
               1B                  $55,296
               1C                                       $199,361
               1D                                                        $1,000,042
               1E                   $1,299
              Total                $867,758             $199,361         $1,000,042


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures. We classified loans in which HUD paid a claim
     and the lenders have conveyed the associated properties to HUD as unsupported costs
     since HUD would not realize a loss or gain on the sale of these properties until they are
     sold. Therefore, the costs associated with these loans are undetermined.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance the funds to be put to better use represent
     savings by the FHA insurance fund realized by not having to pay future claims on loans
     that default.




                                                 23
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments

Comment 1




                         24
Comment 1




            25
Comment 2




            26
Comment 3




            27
28
29
Comment 4




Comment 5




            30
Comment 6   C




Comment 7




Comment 8




Comment 9




            31
Comment 10



Comment 11




Comment 12




             32
Comment 13




Comment 14




Comment 15




             33
Comment 16



Comment 17


Comment 18




Comment 19




Comment 20




             34
Comment 21




Comment 22




Comment 23




             35
Comment 24




             36
Comment 25




Comment 26




             37
Comment 27




Comment 28




             38
Comment 29




Comment 30




Comment 31




             39
Comment 32




             40
Comment 33




Comment 31




             41
Comment 34




Comment 35




Comment 36




             42
Comment 37




Comment 38




Comment 39




             43
Comment 40




Comment 41




             44
Comment 42




Comment 43




             45
Comment 44




             46
                         OIG Evaluation of Auditee Comments


Comment 1   The audit was initiated by HUD-OIG as a result of Allen Mortgage’s high default
            and claim rate for the FHA-insured loans sponsored in our region during the
            period October 1, 2007, through September 30, 2009. We acknowledge that as of
            November 2011, it had reduced its national compare ratio to139 percent.
            However, for the purpose of this audit, the ratio was not a factor in the decision to
            perform our audit. The audit focused on the loans sponsored only in the region.

Comment 2   We agree and modified the report accordingly.

Comment 3   We commend Allen Mortgage for taking initiatives to improve its operations, and
            reducing its compare ratio.

Comment 4   HUD Handbook 4155.1, REV-5, paragraph 1-10(E), states that lenders are not
            permitted to allow borrowers to skip payments. Further, paragraph 1-12 of the
            handbook addresses what is permissible to be included in the existing debt to
            determine the maximum insurable mortgage amount. The existing lien may
            include the interest charged by the servicing lender when the payoff is not
            received on the first day of the month as is typically assessed on FHA mortgages,
            but may not include delinquent interest, late charges, or escrow charges.
            Therefore, if the borrower makes a mortgage payment during the month of
            closing, the interest portion of that payment is for the month before. If the loan
            does not settle on the first day of the month (the date the borrower’s mortgage
            payment becomes due), interest accrues per day, and that accrued interest is
            allowed to be included as part of the borrower’s existing debt.

Comment 5   HUD Mortgagee Letter 2011-11 was not issued until February 14, 2011, which
            was after the scope of our audit. Further, HUD Handbook 4155.1 REV-5,
            paragraph 1-10, which was in effect during our audit period, specifically states
            that lenders are not permitted to allow borrowers to “skip” payments. The
            borrower is either to make the payment when it is due or bring the monthly
            mortgage payment check to settlement. When the new mortgage amount is
            calculated, FHA does not permit the inclusion of any mortgage payments
            "skipped" by the homeowner in the new mortgage amount. For example, a
            borrower whose mortgage payment is due June 1 and expects to close the
            refinance before the end of June is not permitted to roll the June mortgage
            payment into the new FHA loan amount.

            In 2008, HUD issued Mortgagee Letter 2008-40, which revised the maximum
            mortgage calculation to include, in determining of a borrower’s existing debt,
            accrued late charges and escrow shortages. It further states that the mortgage
            being refinanced must be current for the month due. For example, a refinance of
            a mortgage anytime in November must have had the October payment made. Of
            the 32 loans that we reviewed during the audit, only four loans were closed in

                                             47
            2009; thus they were evaluated based on the requirements set forth in this
            mortgagee letter which became effective on January 1, 2009.

Comment 6   As previously mentioned in comment 5, we determined the criteria that were
            applicable for the loans reviewed during our audit period.

Comment 7   We acknowledge that the report makes reference to the findings letter issued to
            Allen Mortgage from HUD’s Quality Assurance Division (QAD). Although there
            were several loans reviewed by HUD, FHA case number 105-2507386 was not
            part of that review. Further, Allen Mortgage did not provide any documentation
            or correspondence with HUD to determine if the loan it cited contained the same
            underwriting deficiencies, and if so, how the deficiencies were resolved.

Comment 8   We agree that the updated payoff identified that the borrower made the mortgage
            payment that was due on November 1, 2008. However, the mortgage payment
            due on December 1, 2008, was not made in accordance with HUD Handbook
            4155.1, REV-5, which was the applicable guidance at the time this loan closed.
            We will modify the audit report accordingly.

Comment 9   See comment # 4. We agree that for a streamline refinance, borrowers do not
            have to provide evidence of cash to close. The report mentioned the borrowers’
            form of payment to present the complete picture of how borrowers were settling
            their newly refinanced loans one or more months after closing. However,
            allowing borrowers to use credit cards created an additional liability and
            potentially impaired their ability to make their mortgage payments.

            For FHA case numbers 261-9338035 and 151-8704674, the borrowers paid the
            funds that were due at closing one and two months, respectively, after their loans
            closed. Further, since the borrowers did not pay the necessary funds to close their
            loans, Allen Mortgage paid the funds; thus creating a conflict of interest
            relationship. It also created a potential first lien or short-term loan financing
            arrangement between Allen Mortgage and the borrowers. According to HUD,
            lenders may not provide cash advances to borrowers other than those made to
            establish escrow accounts.

            Additionally, according to documentation maintained in the loan file for FHA
            case number 151-8704674, the borrower made two separate payments which
            totaled $696. Allen Mortgage did not provide documentation to support its
            statements regarding the collection of an additional $812.63 from the borrower as
            the first payment under their new loan or when the loan was sold. However,
            according to HUD Handbook 4155.1, REV-5, paragraph 2-21, borrowers are not
            to be required to write postdated checks, give cash, or otherwise make mortgage
            payments to the lender in advance of the borrower’s mortgage payment required
            under the security instruments.




                                            48
Comment 10 Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act,
           appendix A, state that line 303 on the HUD-1 settlement statement must indicate
           either the cash required from the borrower at settlement (the usual case in a
           purchase transaction) or cash payable to the borrower at settlement. Therefore,
           borrowers were required to bring funds to close, if needed, on their loans at
           settlement. Further, in reviewing Mortgagee Letter 2009-32, HUD requires
           borrowers to provide evidence of cash to close for streamline refinance
           transactions. As mentioned in the report, our audit period was from October 1,
           2007, through September 30, 2009. Therefore, only 4 of the 32 loans reviewed
           were impacted by this mortgagee letter. HUD Handbook 4155,1, REV-5, was in
           effect for the remaining 28 loans.

              The audit report does not question whether or not the borrowers provided
              evidence of funds to close; it addresses the fact that the borrowers provided
              postdated checks to settle their loans. Therefore the mortgagee letter did not
              change the requirement that borrowers must bring cash/funds to closing, if
              applicable. Further, since Allen Mortgage did not require borrowers to pay the
              cash required to close, it would provide the required funds then seek
              reimbursement.

Comment 11 During the audit, the audit team held several discussions with Allen Mortgage and
           provided applicable criteria that supported the findings cited in the audit report.
           The results of the audit were based on violations of Federal regulations or HUD
           handbooks. The HUD review was only used to disclose that HUD had identified
           similar issues when performing a review of Allen Mortgage.

Comment 12 The review performed by HUD’s Quality Assurance Division reported that Allen
           Mortgage loaned or advanced funds to the borrower for closing which was
           evidenced by a promissory note in the borrower’s loan file. The report did not
           state that the borrower provided postdated checks at settlement. It stated that
           HUD identified similar deficiencies in regards to Allen Mortgage advancing
           borrowers funds to close. We acknowledge that the loan was not indemnified and
           revised the report accordingly. However, Allen Mortgage did not provide any
           documentation to support the resolution of the deficiencies cited.

              Allen Mortgage asserted that it did not advance funds to borrowers for closing
              costs. However, contrary to its assertions, it did allow borrowers to close their
              loans without paying the required funds to close. Further, borrowers were
              required to execute promissory notes agreeing to repay Allen Mortgage for the
              advanced funds as discussed in the audit report. HUD Handbook 4155.1, REV-5,
              paragraph 2-10, states that an independent third party must provide the borrowed
              funds to close. The seller, real estate agent or broker, lender, or other interested
              party may not provide such funds.

Comment 13 An audit performed by HUD OIG is independent of the review performed by
           HUD’s Quality Assurance Division.

                                               49
Comment 14 The table in the audit report was provided to show that the borrowers did not pay
           cash at settlement. Further of the nine loans listed, three identified discrepancies
           between the HUD-1 settlement statements maintained in the FHA case binders
           and HUD-1 settlement statements maintained by Allen Mortgage.

Comment 15 For FHA case number 561-8818240, the borrower’s HUD-1 settlement statement
            (HUD-1) referenced in the table was the statement that was received by HUD and
            maintained in the FHA case binder. The HUD-1 referred to by Allen Mortgage
            was the one it maintained in its electronic loan files. However, the information
            contained on Allen Mortgage’s version of the HUD-1 did not contain the same
            information as the HUD-1 settlement statement in the FHA case binder (as
            discussed in finding 2). We determined during the audit that the HUD-1
            settlement statements sent to HUD were not always accurate. At closing, Allen
            Mortgage allowed borrowers to pay funds that were due at closing after their
            loans settled. However, the HUD-1 settlement statement maintained in the FHA
            case binder did not show that the borrowers needed funds to close.

Comment 16 For FHA case number 581-3334641, the borrower was permitted to pay the cash
           that was due at closing, after the loan settled. Further, the amount represented on
           the HUD-1 settlement statement maintained by HUD was not accurate.

Comment 17 For FHA case number 292-5210194, the borrower was permitted to the pay cash
           that was due at closing, after the loan settled. Further, the amount represented on
           the HUD-1 settlement statement maintained by HUD was not accurate.

Comment 18 See comments 15, 16, and 17.

Comment 19 The settlement requirements in HUD Handbook 4155.1, REV-5, are applicable to
           each transaction. Further, regulations at 24 CFR Part 3500, Real Estate
           Settlement Procedures Act, appendix A, state that line 303 on the HUD-1
           settlement statement must indicate either the cash required from the borrower at
           settlement (the usual case in a purchase transaction) or cash payable to the
           borrower at settlement. This requirement is applicable for all real estate
           settlement transactions. The audit report included the verbiage to emphasis that
           the settlement statement indicates either cash required from the borrower at
           settlement or cash payable to the borrower at settlement.

              Further, the lender must determine the amount of funds the borrower needs to
              close the loan. As mentioned in the audit report, one borrower was not aware that
              he needed funds to close.

Comment 20 We acknowledge that HUD Handbook, 4155.1, REV5, paragraph 1-12(d), for
           streamline refinance transactions states that borrowers are not required to provide
           evidence of cash-to-close. However, this does not mean that borrowers do not



                                               50
              have to bring cash that was needed to settle the refinance transaction to closing.
              Further, see comment 10 regarding the mortgagee letter.

Comment 21 Allen Mortgage acknowledged that it did not properly determine a borrower’s
           eligibility for streamline refinancing. The remaining borrower should been credit
           qualified. We commend Allen Mortgage’s commitment to address this issue cited
           in the audit report.

Comment 22 Allen Mortgage acknowledged that it did not properly calculate borrowers’
           maximum mortgage amounts. We commend Allen Mortgage’s commitment to
           address this issue cited in the audit report.

Comment 23 Although Allen Mortgage did not provide documentation to support its statements,
           we commend Allen Mortgage’s willingness to buydown the borrower’s loan by
           $188.

Comment 24 See comments 12 and 13

Comment 25 HUD’s regulations at 24 CFR 203.5, states that direct endorsement lenders must
           exercise the same level of care which it would exercise in obtaining and verifying
           information for a loan in which the lender would be entirely dependent on the
           property as security to protect its investment. The Secretary should publish
           guidelines for direct endorsement underwriting procedures in a handbook, which
           should be provided to all lenders approved for the direct endorsement procedure.
           Compliance with these guidelines is deemed to be the minimum standard of due
           diligence in underwriting mortgages. Further, HUD’s Direct Endorsement
           program lenders certify that they complied with all HUD’s regulations and that
           due diligence was used in underwriting the loans. Therefore, since HUD’s
           handbooks and guidance sets the minimum standards for underwriting loans,
           deviations from a HUD regulations would constitute a lack of due diligence as
           cited in the audit report.

Comment 26 The Program Fraud Civil Remedies Act of 1986, codified at 31 U.S.C. 3801-
           3812, established an administrative remedy against any person who makes, or
           causes to be made, a false claim or written statement to any of certain Federal
           agencies. Administrative actions recompense Federal agencies for losses, not
           necessarily to punish individuals. Regulations at title 24 CFR 25.6 list the
           violations creating grounds for administrative actions which include but are not
           limited to (1) violation of the requirements of any contract or agreement with
           (HUD), or violation of the requirements set forth in any statute, regulation,
           handbook, mortgagee letter, or other written rule or instruction, (2) submission of
           false information to HUD in connection with any HUD/FHA insured mortgage
           transaction; (3) business practices which do not conform to generally accepted
           practices of prudent mortgagees or which demonstrate irresponsibility, (4)
           violation by an approved mortgagee of the requirements or prohibitions of the
           Real Estate Settlement Procedures Act, and (5) failure to properly perform

                                               51
              underwriting functions in accordance with instructions and standards issued by
              the (HUD).

              Therefore, violations of HUD’s regulations, and mortgagee letters are subject to
              administrative actions. The appropriateness of the administrative action will be
              determined by HUD.

Comment 27 We agree that the loans reviewed were streamline refinances, and mortgage credit
           underwriting is not required except for credit qualifying streamline refinances. This
           sentence was included in the report due to the one loan that was streamline refinanced
           FHA case number 151-8624264 instead of being credit qualified. See comment 21.
           In performing the audit, HUD-OIG relies on laws, regulations, and written
           guidance applicable to HUD program participants.

Comment 28 As previously mentioned, HUD Handbook 4155.1 REV-5, paragraph 1-10, which
           was in effect during our audit period, specifically states that lenders are not
           permitted to allow borrowers to “skip” payments. The borrower is either to make
           the payment when it is due or bring the monthly mortgage payment check to
           settlement. When the new mortgage amount is calculated, FHA does not permit
           the inclusion of any mortgage payments "skipped" by the homeowner in the new
           mortgage amount. For example, a borrower whose mortgage payment is due June
           1 and expects to close the refinance before the end of June is not permitted to roll
           the June mortgage payment into the new FHA loan amount. For 17 of the loans,
           Allen Mortgage did not require borrowers to make their mortgage payment(s)
           when they were due or bring their monthly mortgage payments to settlement.
           Therefore, all the documentation necessary to approve the loans were not
           provided.

Comment 29 See comment 21 and 27. Allen Mortgage acknowledged that it would be hard to
           argue that it would make this same loan without the backing of FHA insurance.
           However, HUD regulations at 24 CFR 203.5(c) require a direct endorsement
           lender to exercise the same level of care it would exercise in obtaining and
           verifying information for a loan in which the lender would be entirely dependent
           on the property as security to protect its investment.

Comment 30 See comments 4, 9, 19, and 21


Comment 31 Allen Mortgage acknowledged that it calculated borrowers’ payoff amounts based
           on borrowers stating that they made all the payments due on their mortgages. It
           did not confirm this information with the borrowers’ servicers or wait to receive
           updated payoff statements. Additionally, HUD and at least one borrower did not
           receive accurate and updated HUD-1 settlement statements. The borrower
           received a HUD-1 settlement statement that showed that he did not pay funds at
           closing, which was the same as the one submitted to HUD.
           However, based on the documentation in Allen Mortgage’s loan files, we
           determined that the borrower actually paid funds after the loan had closed.
                                               52
              Therefore, contrary to Allen Mortgage’s statements, accurate HUD-1settlement
              statements were not always provided to all concerned parties.

               Allen Mortgage’s failure to provide complete and accurate information to
              borrowers is a potential RESPA violation. RESPA requires that HUD-1
              settlement statements show the actual settlement costs of the loan transaction
              which should be provided by the borrower within 45 days after settlement.
              Further, at least seven borrowers received settlement statements that disclosed
              that no funds were due at closing. However, the settlement statements maintained
              by Allen Mortgage showed that the borrowers had to pay funds at closing.

Comment 32 We adjusted the report accordingly.

Comment 33 We adjusted the report to state that loan officers and processors calculated the
           payoff amounts, not underwriters. However, Allen Mortgage’s underwriters are
           responsible for approving loans. Further, see comment 31

Comment 34 Contrary to Allen Mortgage’s assertions, borrowers did not always benefit from
           streamline refinancing because it actively sought reimbursement from the
           borrowers to recoup the skipped payments or settlement costs. Therefore, the
           benefits that the borrowers should have received were diminished due to the
           newly acquired liability. Borrowers’ good faith estimates did not always disclose
           that funds were needed to close. For instance, one borrower was not informed
           that funds were needed to close until settlement.

Comment 35 Lenders are permitted to grant interest free advances to establish new escrow
           accounts for borrowers in accordance with HUD Handbook of the 4155.1, REV-5.
           However, the handbook does not state that lenders are permitted to grant interest
           free loans to borrowers for the amount of the cash due at closing, which was often
           the case according to the documentation maintained by Allen Mortgage. The
           guidance in HUD Handbook 4155.1, REV-5, states that lenders or other interested
           third parties may not advance cash to borrowers for cash to close in paragraph 2-
           10 (D). Further as mentioned in the audit report, one borrower informed the
           auditors that he executed a promissory note, which was included in his loan file,
           with Allen Mortgage to pay the amount due on his previous mortgage. The funds
           that the borrower had to pay were not represented on his copy of the settlement
           statement or the settlement statement maintained in the FHA case binder.

Comment 36 The $2 million is the estimated loss that HUD could potentially incur based on the
           21 loans with underwriting deficiencies regardless of whether the loans were
           refinances or purchases.

Comment 37 Based on the deficiencies identified in this audit report, we believe our
           recommendations are appropriate. Further, see comments 5, 9, and 12.




                                              53
Comment 38 We disagree. Allen Mortgage refinanced this loan after the death of the primary
           borrower. The remaining borrower should have been credit qualified. Further, see
           comment 21.

Comment 39 Based on the deficiencies identified in this audit report, we believe our
           recommendations are appropriate. Further, see comments 4, 10, 14, and 19.

Comment 40 Based on the deficiencies identified in this audit report, we believe our
           recommendations are appropriate.

Comment 41 We commend Allen Mortgage for agreeing to buydown the loans.

Comment 42 We have not evaluated Allen Mortgage’s implementation of its changed policies
           or procedures, or its implementation of HUD Mortgagee letter 2011-11.

Comment 43 Based on the deficiencies identified in this audit report, we believe our
           recommendations are appropriate.

Comment 44 We provided our results of our underwriting and quality control reviews to Allen
           Mortgage on an ongoing basis throughout the audit. Therefore, the information
           presented in the audit report, was provided to Allen Mortgage several months
           prior to the issuance of this audit report. Further, after the issuance of the
           discussion draft audit report, we provided Allen Mortgage nearly 30 days to
           prepare its written response.




                                              54
Appendix C

              SUMMARY OF LOANS WITH UNDERWRITING
                         DEFICIENCIES


                                                                                       Borrower
                                                                                        received
                             Funds       Settled        Eligibility    Miscalculated      more
                               not     loans using         not          maximum        than $500      Material
 FHA case        Skipped     paid at      credit        properly        mortgage            at      underwriting
  number         payment     closing     cards 30      determined        amount        settlement    deficiencies
151-8681596         X           X                                                                         X
561-8818240         X           X                                                                         X
261-9356573         X           X                                                                         X
292-5210194         X           X                                                                        X 31
263-4128155         X                                                                                     X
261-9338035         X                        X                                                            X
262-1731385         X                        X                                                            X
581-2985846         X                                                                                     X
491-9085385         X                                                                                     X
292-4835727         X                                                                                     X
291-3657749         X                                                                                     X
151-8704674         X                        X                                                            X
291-3690893         X                                                                                     X
493-8933804         X                                                                                     X
011-5930328         X                                                                                     X
581-2884051         X                                                                                     X
483-4074768         X                                                                                     X
491-9528744                     X                                                                         X
105-4322752                     X                                                                        X 32
493-8825894                     X                                                                         X
581-3334641                     X                                                                         X
151-8570534                     X                                                                         X
151-8624264                                                   X                                           X
562-2087147                                                                                X
263-4211541                                                                 X
263-4186532                                                                 X
381-9331530                                                                 X
     Total          17          9            3                1             3              1             23



30
   The borrowers’ personal credit were charged after their loans closed.
31
   This loan was streamline refinanced.
32
   This loan was streamline refinanced.

                                                         55
Appendix D

     SUMMARY OF LOANS WITH MATERIAL UNDERWRITING
                    DEFICIENCIES

                                                                                              Estimated loss
                                                                                               to HUD (66
                                                                                                percent of
                                                                               Unpaid             unpaid
                                                                              principal         principal
       Count      FHA case number       Loss to HUD        Claim paid          balance           balance)
          1         263-4128155           $132,281
          2         261-9338035            112,112
          3         262-1731385            106,450
          4         011-5930328             44,193
          5         261-9356573                -              $199,361
          6         151-8681596             69,269
          7         151-8704674            107,103
          8         151-8624264                -              55,296 33
          9         561-8818240                -                  -           $257,525           $169,966
         10         491-9528744                -                  -            196,333            129,580
         11         581-2884051                -                               156,824            103,504
         12         581-2985846                -               -               151,758            100,161
         13         491-9085385            120,260             -
         14         292-4835727                -               -              130,084             85,855
         15         291-3657749                -               -              119,567             78,914
         16         493-8825894                -               -              117,435             77,507
         17         483-4074768                -               -              115,781             76,415
         18         581-3334641            119,496             -
         19         291-3690893                -               -               91,713             60,531
         20         493-8933804                -               -               90,939             60,020
        21 34       151-8570534                -               -               87,256             57,589
                       Totals             $811,163         $199,361 35       $1,528,873         $1,000,042




33
   The amount was a preforeclosure claim.
34
   There were 23 loans with material underwriting deficiencies; however, FHA case numbers 105-4322752 and
292-5210194 were paid in full. The borrowers streamline refinanced their loans.
35
   This amount does not include the $55,296 claim paid for the property that was sold through a preforeclosure sale.

                                                         56
Appendix E

                NARRATIVES OF LOANS WITH MATERIAL
                    UNDERWRITING DEFICIENCIES


FHA case number:      263-4128155

Mortgage amount:      $168,457

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement      January 31, 2008

Status: Claim

Payments before first 90-day delinquency reported: Four

Loss to HUD: $132,281

Area of Noncompliance:       Skipped payment

Summary:

The borrower’s mortgage payoff statement, dated January 11, 2008, indicated that the borrower
had not made the mortgage payment due on January 1, 2008. According to the borrower’s
mortgage payoff statement, the total due on the loan was $166,940, which included accrued
interest from December 1, 2007, to January 31, 2008. Allen Mortgage’s loan files did not
contain documentation indicating that the borrower made the final mortgage payment that was
due on January 1, 2008, on the previous loan before or at closing as required by HUD. Further,
Allen Mortgage paid more than $659 to assist with the settlement of this loan.

Criteria

HUD Handbook 4155.1, REV-5, paragraph 1-10(E), states that lenders are not permitted to allow
borrowers to skip payments. The borrower is either to make the payment when it is due or bring
the monthly mortgage payment to settlement. When the new mortgage amount is calculated,
FHA does not permit the inclusion of mortgage payments skipped by the borrower in the new
mortgage amount. For example, a borrower whose mortgage payment is due June 1 and who
expects to close the refinance before the end of June is not permitted to roll the June mortgage
payment into the new FHA loan amount.



                                                57
Regulations at 24 CFR 203.330 state that a mortgage account is delinquent any time a payment is
due and not paid.




                                              58
FHA case number:      151-8681596

Mortgage amount:      $142,789

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:     April 29, 2008

Status: Claim

Payments before first 90-day delinquency reported: Five

Loss to HUD: $69,269

Areas of noncompliance:      Skipped payment, funds not paid at closing

Summary:

The borrower’s credit report indicated that the borrower’s mortgage was current as of March
2008. However, the borrower’s payoff statement, dated April 22, 2008, showed that the loan
was due for the April 1, 2008, payment and as a result, incurred late charges. Allen Mortgage’s
loan files or the FHA case binder did not contain documentation to determine whether the
borrower made the payment that was due on the previous mortgage before or at closing as
required by HUD.

Additionally, the borrower’s HUD-1 settlement statement indicated that the borrower was
required to pay $1,219 to close on the new loan. However according to the Allen Mortgage’s
records, the borrower did not provide funds at closing. Instead, the borrower provided a personal
check, dated May 3, 2008, made payable to Allen Mortgage after the loan had closed and settled.
According to HUD’s requirements, line 303 of the settlement statement must indicate either the
cash required from the borrower at settlement or cash payable to the borrower at settlement.

Criteria

HUD Handbook 4155.1, REV-5, paragraph 1-10(E), states that lenders are not permitted to allow
borrowers to skip payments. The borrower is either to make the payment when it is due or bring
the monthly mortgage payment to settlement. When the new mortgage amount is calculated,
FHA does not permit the inclusion of mortgage payments skipped by the borrower in the new
mortgage amount. For example, a borrower whose mortgage payment is due June 1 and who
expects to close the refinance before the end of June is not permitted to roll the June mortgage
payment into the new FHA loan amount.

Paragraph 1-9 states that for each transaction, the lender must estimate the settlement
requirements to determine the cash required to close the mortgage transaction. The difference

                                               59
between the amount of the FHA-insured mortgage, excluding any upfront mortgage insurance
premium, and the total cost to acquire the property, including these expenses, determines the
cash needed for closing a loan eligible for FHA mortgage insurance.

Regulations at 24 CFR 203.330 state that a mortgage account is delinquent any time a payment is
due and not paid.

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
line 303 must indicate either the cash required from the borrower at settlement (the usual case in
a purchase transaction) or cash payable to the borrower at settlement.




                                                60
FHA case number:      261-9338035

Mortgage amount:      $101,429

Section of Housing Act:       203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:      April 29, 2008

Status: Claim

Payments before first 90-day delinquency reported: Four

Loss to HUD: $112,112

Area of noncompliance:        Skipped payment

Summary:

The borrowers’ mortgage payoff statement, dated April 14, 2008, indicated that the borrowers’
mortgage payments due on March 1 and April 1, 2008, were not paid. The borrowers’ executed
HUD-1 settlement statement in the FHA case binder and the HUD-1 settlement statement
maintained in Allen Mortgage’s loan files did not indicate that the borrowers were required to
pay cash to close the loan. Additionally, Allen Mortgage’s loan files and the FHA case binder
did not contain documentation to determine whether the borrowers made the payments due under
the borrowers’ previous mortgage before or at closing as required by HUD.

According to the borrowers’ HUD-1 settlement statement generated by the title company, the
borrowers were required to pay $891 at closing. According to Allen Mortgage’s financial
documentation, the borrowers were required to pay $891 to close the loan and $3,000 down to
establish an escrow account. The borrowers paid Allen Mortgage the $891 that was needed to
close the loan on May 12, 2008, using a credit card, and paid two-thirds of the escrow in two
installment payments of $1,000 on May 16 and May 19, 2008, respectively, also using a credit
card. Therefore, the borrowers charged $2,891 to a credit card during the month of May 2008;
however, the borrowers’ loan closed and settled in April 2008. According to HUD’s
requirements, funds can be borrowed for the total required investment as long as satisfactory
evidence is provided that the funds are fully secured by investment accounts or real property.
Additionally, line 303 on the settlement statement must indicate either the cash required from the
borrower at settlement or cash payable to the borrower at settlement to close the loan.

Criteria:

HUD Handbook 4155.1, REV-5, paragraph 1-10(E), states that lenders are not permitted to allow
borrowers to skip payments. The borrower is either to make the payment when it is due or bring
the monthly mortgage payment to settlement. When the new mortgage amount is calculated,

                                                61
FHA does not permit the inclusion of mortgage payments skipped by the borrower in the new
mortgage amount. For example, a borrower whose mortgage payment is due June 1 and who
expects to close the refinance before the end of June is not permitted to roll the June mortgage
payment into the new FHA loan amount.

Paragraph 2-10(D) states that regarding collateralized loans, funds can be borrowed for the total
required investment as long as satisfactory evidence is provided that the funds are fully secured
by investment accounts or real property. Such assets may include stocks, bonds, real estate
(other than the property being purchased), etc. An independent third party must provide the
borrowed funds. The seller, real estate agent or broker, lender, or other interested third party
may not provide such funds.

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
line 303 must indicate either the cash required from the borrower at settlement or cash payable to
the borrower at settlement.




                                                62
FHA case number:      262-1731385

Mortgage amount:      $120,124

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:     April 30, 2008

Status: Claim

Payments before first 90-day delinquency reported: Zero

Loss to HUD $106,450

Area of noncompliance:       Skipped payment

Summary:

The borrower’s mortgage payoff statement included accrued interest from March 1 to May 1,
2008, which meant that the borrower’s April 1, 2008, mortgage payment had not been made
before the loan closed. The HUD-1 settlement statement maintained in Allen Mortgage’s loan
files showed a customer deposit in the amount of $820 in the borrower financing section (section
200). In addition, Allen Mortgage’s wire calculation sheet showed that Allen Mortgage
collected $820 from the borrower to close. However, the borower’s executed HUD-1 settlement
statement in the FHA case binder did not show that the borrower needed $820 to close the loan;
instead, it showed that the borrower received $500 cash back at closing. According to HUD’s
requirements, lenders are not permitted to allow borrowers to skip payments.

According to Allen Mortgage’s financial reports and supporting records, the borrower paid $820
to close the loan on June 22, 2008, using a credit card. According to HUD’s requirements, funds
can be borrowed for the total required investment as long as satisfactory evidence is provided
that the funds are fully secured by investment accounts or real property. Additionally, line 303
on the settlement statement must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement to close the loan. The loan closed on
April 14, 2008, and settled on April 30, 2008.

Criteria:

HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is
either to make the payment when it is due or bring the monthly mortgage payment check to
settlement. When the new mortgage amount is calculated, FHA does not permit the inclusion of
any mortgage payments skipped by the homeowner in the new mortgage amount.



                                               63
Paragraph 2-10(D), regarding collateralized loans, states that funds can be borrowed for the total
required investment as long as satisfactory evidence is provided that the funds are fully secured
by investment accounts or real property. Such assets may include stocks, bonds, real estate
(other than the property being purchased), etc. An independent third party must provide the
borrowed funds. The seller, real estate agent or broker, lender, or other interested third party
may not provide such funds.




                                                64
FHA case number:              151-8624264

Mortgage amount:              $138,367

Section of Housing Act:                203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:               March 28, 2008

Status: Claim

Payments before first 90-day delinquency reported: Five

Claim paid:          $55,296 36

Area of noncompliance:                 Eligibility not properly determined

Summary:

The primary borrower died, and the coborrower streamlined refinanced the FHA-insured loan.
Allen Mortgage’s underwriter did not determine the coborrower’s ability to repay the loan before
refinancing the loan. The primary borrower on the previous loan died on February 26, 2008,
according to a death certificate in the Allen Mortgage’s loan file. However, the closing date of
the new loan was March 21, 2008, which was less than 1 month following the death of the
coborrower’s spouse, the previous primary borrower. Allen Mortgage’s underwriter did not
show that the coborrower could make the mortgage payments without the primary borrower for
at least 6 months before the new loan closed in accordance with HUD’s requirements. The
coborrower did not make one payment on the previous mortgage after the primary borrower
died, which was before the loan was streamline refinanced.

Criteria:

HUD Handbook 4155.1, REV-5, paragraph 1-12(D), states that individuals may be deleted from
the title on a streamline refinance only when (1) the assumption of the mortgage not containing a
due-on-sale clause occurred more than 6 months previously and the assumptor can document that
he or she has made the mortgage payments during this interim period or (2) following an
assumption of a mortgage when a due-on-sale clause was not triggered and the assumption or
quit-claim of interest occurred more than 6 months previously and the assumptor can document
that he or she made the mortgage payments during this time.




36
     The claim was paid as a result of a preforeclosure sale.

                                                                65
FHA case number:      561-8818240

Mortgage amount:      $271,463

Section of Housing Act:       203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:      October 31, 2008

Status: Active

Payments before first 90-day delinquency reported: One

Unpaid principal balance:     $257,525

Areas of noncompliance:       Skipped payment, funds not paid at closing

Summary:

The borrower’s loan closed on October 27, 2008, and the loan was settled on October 31, 2008.
Allen Mortgage’s underwriter approved the loan on October 28, 2008. The borrower’s HUD-1
settlement statement generated by the title company was different from the settlement statement
maintained in the FHA case binder. The title company’s settlement statement showed that the
mortgage payoff amount on the borrower’s previous loan was $269,301 and the cash required
from the borrower to close on the new loan was $3,854. The borrower’s HUD-1 settlement
statement in the FHA case binder had a payoff amount of $267,609, and the total cash required
from the borrower to close was $1,927.

Allen Mortgage’s financial records did not support that the borrower paid the $1,927 that was
due at closing. The borrower provided Allen Mortgage with three postdated checks after the
loan had closed and settled. It received the first check in the amount of $1,921 on November 17,
2008, the second check in the amount of $350 on December 2, 2008, and the last check in the
amount of $1,927 on December 2, 2008. Therefore, Allen Mortgage received a total of $4,198
from the borrower after the loan closed. Additionally, according to Allen Mortgage’s financial
records, all three of the postdated checks did not clear the borrower’s bank account because of
insufficient funds. According to HUD’s requirements, line 303 on the settlement statement must
indicate either the cash required from the borrower at settlement or cash payable to the borrower
at settlement.

The borrower’s mortgage payoff statement indicated that the borrower’s loan payoff amount
included accrued interest for the period September 1 to November 1, 2008. However, Allen
Mortgage’s loan files did not contain documentation to support that the borrower made the
mortgage payment due on October 1, 2008, under the previous loan. According to HUD’s
requirements, lenders are not permitted to allow borrowers to skip payments.



                                                 66
Criteria:
HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is
either to make the payment when it is due or bring the monthly mortgage payment check to
settlement. When the new mortgage amount is calculated, FHA does not permit the inclusion of
any mortgage payments skipped by the homeowner in the new mortgage amount.

Paragraph 1-9 states that for each transaction, the lender must estimate the settlement
requirements to determine the cash required to close the mortgage transaction. The difference
between the amount of the FHA-insured mortgage, excluding any upfront mortgage insurance
premium, and the total cost to acquire the property, including these expenses, determines the
cash needed for closing a loan eligible for FHA mortgage insurance.

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
line 303 on the settlement statement must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.




                                               67
FHA case number:      491-9528744

Mortgage amount:      $206,834

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:     May 22, 2009

Status: Active

Payments before first 90-day delinquency reported: Not applicable

Unpaid principal balance:    $196,333

Area of noncompliance:       Funds not paid at closing

Summary:

The borrower’s loan closed May 16, 2009, but was approved by Allen Mortgage’s underwriter
on May 20, 2009, which was after the borrower signed the settlement statement. The
underwriter did not obtain the borrower’s mortgage payoff statement until after the borrower
closed on the new loan. Additionally, the borrower’s HUD-1 settlement statement in Allen
Mortgage’s loan files and the FHA case binder showed that the borrower was required to pay
$586 to close on the newly refinanced loan. However, contrary to HUD’s requirements, the
borrower paid Allen Mortgage the funds needed to close using a personal check, dated June 20,
2009, in the amount of $586, after the loan had closed and settled.

Criteria:

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
line 303 on the settlement statement must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.




                                               68
FHA case number:       261-9356573

Mortgage amount:       $181,770

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:     February 28, 2008

Status: Active

Payments before first 90-day delinquency reported: Eight

Claim paid       $199,361

Areas of noncompliance:      Skipped payment, funds not paid at closing

Summary:

The borrower’s mortgage payoff statement, dated February 13, 2008, included accrued interest
from January 1 to March 1, 2008. Therefore, the borrower did not make the mortgage payment
that was due on February 1, 2008, before the loan was streamline refinanced. Allen Mortgage’s
loan files did not contain documentation to determine whether the borrower made the mortgage
payment before or at closing. The borrower’s HUD-1 settlement statement indicated that the
borrower needed $1,112 to close the loan. Allen Mortgage’s financial records, in particular its
ledger, disclosed a debit to undeposited funds and a credit to receivables on March 3, 2008, for
$1,112, the exact amount the borrower needed to close. Therefore, Allen Mortgage’s records did
not support that the borrower paid the needed funds to close the loan. The borrower’s new loan
closed on February 21, 2008, and settled on February 28, 2008. HUD requires that borrowers
either pay the mortgage payment when it is due or bring the final mortgage payment to closing.

Criteria:

HUD Handbook 4155.1, REV-5, paragraph 1-10(E), states that lenders are not permitted to allow
borrowers to skip payments. The borrower is either to make the payment when it is due or bring
the monthly mortgage payment to settlement. When the new mortgage amount is calculated,
FHA does not permit the inclusion of mortgage payments skipped by the borrower in the new
mortgage amount. For example, a borrower whose mortgage payment is due June 1 and who
expects to close the refinance before the end of June is not permitted to roll the June mortgage
payment into the new FHA loan amount.

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
line 303 on the settlement statement must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.



                                               69
HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.




                                               70
FHA case number:      581-2985846

Mortgage amount:      $161,487

Section of Housing Act:       203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:      March 31, 2008

Status: Active

Payments before first 90-day delinquency reported: Not applicable

Unpaid principal balance:     $151,758

Area of noncompliance:        Skipped payment

Summary:

The borrower’s payoff statement included interest accrued from February 1 to May 1, 2008.
However, the loan was funded in March 2008. The borrower’s payoff amount identified on the
HUD-1 settlement statement reflected the accurate payoff amount by reducing it by the
borrower’s March 1, 2008, mortgage payment. However, Allen Mortgage’s loan files did not
contain documentation to support whether the borrower made the mortgage payment due March
1, 2008, before the loan closed. The title company’s payment ledger identified that no funds
were collected from the borrower at closing. However, Allen Mortgage’s financial records
showed that it received the borrower’s personal check in the amount of $554 on April 24, 2008.
However, the borrower’s principal and interest mortgage payment on the new loan was $968.20.
Further, according to the Allen Mortgage’s title ledger, it paid $669.90 on behalf of the borrower
to close the mortgage transaction.

According to Allen Mortgage’s settlement disbursement calculation worksheet, the borrower
needed $1,324 to close the loan. However, the borrower’s HUD-1 settlement statements in Allen
Mortgage’s loan files and the FHA casebinder did not indicate that the borrower was required to
pay funds to close. According to HUD’s requirement, lenders are not permitted to allow
borrowers to skip payments. Additionally, line 303 on the settlement statement must indicate
either the cash required from the borrower at settlement or cash payable to the borrower at
settlement.

Criteria:

HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is
either to make the payment when it is due or bring the monthly mortgage payment check to



                                                71
settlement. When the new mortgage amount is calculated, FHA does not permit the inclusion of
any mortgage payments skipped by the homeowner in the new mortgage amount.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
line 303 on the settlement statement must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.




                                               72
FHA case number:      292-5210194

Mortgage amount:      $148,210

Section of Housing Act:       203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:      January 16, 2009

Status: Terminated

Payments before first 90-day delinquency reported: Not applicable

Unpaid principal balance:     Paid in full

Areas of noncompliance:       Skipped payment, funds not paid at closing

Summary:

The borrower’s new loan closed January 12, 2009. However, the loan was approved by Allen
Mortgage’s underwriter on January 26, 2009. Additionally, according to the borrower’s HUD-1
settlement statement, the borrower needed $650 to close. The borrower’s payoff statement
showed that the borrower’s previous loan was due for the January 1, 2009, payment.

Further, the borrower’s HUD-1 settlement statement contained a description, “Jan. Pmnt Paid At
Closing,” on line item 205 for $1,341. According to Allen Mortgage, this amount represented
the funds the borrower needed to close and should have been on line 303. Further, according to
Allen Mortgage’s financial records, it received two personal checks from the borrower in the
amounts of $1,341 on February 9, 2009, and $650 on February 23, 2009. However, the checks
were dated January 27 and February 24, 2009, respectively. On July 20, 2009, Allen Mortgage
issued the borrower a refund of $247. Contrary to HUD’s requirements, the lender allowed the
borrower to skip payments and close on the loan without paying the required cash to close.

Criteria:

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
lines 204–209 on the settlement statement are used for other items paid by or on behalf of the
borrower. Lines 204–209 should be used to indicate any financing arrangements or other new
loan not listed in line 202. Line 303 must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any



                                                 73
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.

HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is
either to make the payment when it is due or bring the monthly mortgage payment to settlement.
When the new mortgage amount is calculated, FHA does not permit the inclusion of any
mortgage payments skipped by the homeowner in the new mortgage amount.




                                               74
FHA case number:      105-4322752

Mortgage amount:      $141,903

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:     December 29, 2008

Status: Terminated

Payments before first 90-day delinquency reported: Not applicable

Unpaid principal balance:    Paid in full

Area of noncompliance:       Funds not paid at closing

Summary:

Allen Mortgage’s underwriter approved the loan on December 24, 2008. However, the new loan
closed on December 22, 2008. According to the borrower’s HUD-1 settlement statement
prepared by the title company, the borrower was required to pay $791 to close the loan.
According to Allen Mortgage’s financial records, the borrower provided a personal check, dated
January 12, 2009, in the amount of $791 to close the loan. However, the funds were provided
after the loan had already closed and settled. Contrary to HUD’s requirements, line 303 on the
settlement statement must indicate either the cash required from the borrower at settlement or
cash payable to the borrower at settlement.

Criteria:

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
line 303 on the settlement statement must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.




                                               75
FHA case number:      491-9085385

Mortgage amount:      $141,402

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:     December 27, 2007

Status: Claim

Payments before first 90-day delinquency reported: Seven

Loss to HUD: $120,260

Area of noncompliance:       Skipped payment

Summary:

The borrowers’ mortgage payoff statement, dated December 5, 2007, indicated that the
borrowers had accrued interest from November and December 2007. Therefore, as of the date of
the statement, the borrowers had not paid their mortgage payment due on December 1, 2007. In
addition, the borrowers’ HUD-1 settlement statement signed by the borrowers on December 22,
2007, did not require the borrowers to bring cash to close. Allen Mortgage’s loan files did not
contain documentation to determine whether the borrowers made the mortgage payment due on
their previous loan before or at closing. According to HUD’s requirements, lenders are not
permitted to allow borrowers to skip payments.

Criteria:

HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is
either to make the payment when it is due or bring the monthly mortgage payment check to
settlement. When the new mortgage amount is calculated, FHA does not permit the inclusion of
any mortgage payments skipped by the homeowner in the new mortgage amount.




                                               76
FHA case number:      292-4835727

Mortgage amount:      $138,420

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:     December 27, 2007

Status: Active

Payments before first 90-day delinquency reported: Seven

Unpaid principal balance:    $130,084

Area of noncompliance:       Skipped payment

Summary:

The borrowers’ mortgage payoff statement indicated that the borrowers did not pay their
mortgage payments due December 1, 2007. The loan closed on December 20, 2007. According
to the borrowers’ HUD-1 settlement statement, the borrowers were not required to bring funds to
close. Additionally, Allen Mortgage’s loan files did not contain documentation to determine
whether the borrowers made the payments that were due on their previous loan before or at
closing. According to HUD’s requirements, lenders are not permitted to allow borrowers to skip
payments.

Criteria:

HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is
either to make the payment when it is due or bring the monthly mortgage payment check to
settlement. When the new mortgage amount is calculated, FHA does not permit the inclusion of
any mortgage payments skipped by the homeowner in the new mortgage amount.




                                               77
FHA case number:      291-3657749

Mortgage amount:      $127,232

Section of Housing Act:       203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:      March 30, 2008

Status: Active

Payments before first 90-day delinquency reported: 11

Unpaid principal balance      $119,567

Area of noncompliance:        Skipped payment

Summary:

The borrower’s new streamline refinanced loan closed on March 18, 2008, and was funded on
March 30, 2008. The borrower’s HUD-1 settlement statement generated by the title company
contained the line item description, “March Pmt Reimbursement Check,” for $857 on line 205.
This line item was not on the HUD-1 settlement statement in the FHA case binder. According to
Allen Mortgage, the borrower’s March reimbursement check amount was the amount of funds
the borrower needed to close. Therefore, it should have been on line 303 of the settlment
statement, representing the funds needed from the borrower to close.

According to Allen Mortgage’s financial records, it did not collect the $857 that was due at
closing from the borrower. Its ledger showed that a reimbursement payment of $1,004 was
received and debited to the account, entitled “Undeposited Funds,” and credited to its accounts
receivable on April 7, 2008. According to the borrower’s mortgage credit analysis worksheet,
the new loan’s monthly mortgage payment was $1,004, which was the amount of the payment
that was debited to its undeposited funds account.

Additionally, the borrower’s mortage payoff statement included accrued interest from February 1
to March 31, 2008. The payoff statement was dated March 18, 2008. According to Allen
Mortgage’s records, the borrower made a payment to Allen Mortgage using a credit card on
April 7, 2008, which was after the loan closed and was funded.

According to HUD’s requirements, borrowers are not allowed to skip payments, and lenders may
not advance cash to borrowers for funds to close. Also, lines 204–209 on the HUD-1 settlement
statement should be used to indicate any financing arrangements or other new loan not listed in
line 202. Line 303 must indicate either the cash required from the borrower at settlement or cash
payable to the borrower at settlement.



                                                78
Criteria:

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
lines 204–209 on the settlement statement are used for other items paid by or on behalf of the
borrower. Lines 204–209 should be used to indicate any financing arrangements or other new
loan not listed in line 202. Line 303 must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.

HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is
either to make the payment when it is due or bring the monthly mortgage payment to settlement.
When the new mortgage amount is calculated, FHA does not permit the inclusion of any
mortgage payments skipped by the homeowner in the new mortgage amount.

Paragraph 2-10(D) states that funds can be borrowed for the total required investment as long as
satisfactory evidence is provided that the funds are fully secured by investment accounts or real
property, other than the property being purchased. An independent third party must provide the
borrowed funds. The lender or other interested third party may not provide such funds.




                                               79
FHA case number:      493-8825894

Mortgage amount:      $123,791

Section of Housing Act:       203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:      October 30, 2008

Status: Active

Payments before first 90-day delinquency reported: Not applicable

Unpaid principal balance:     $117,435

Area of noncompliance:        Funds not paid at closing

Summary:

Allen Mortgage’s underwriter approved the mortgage on October 27, 2008; however, the
borrowers’ loan closed on October 25, 2008. The borrowers’ HUD-1 settlement statement
indicated that $1,263 was due from the borrowers at closing. However, according to Allen
Mortgage’s financial records, the borrowers paid $1,263 to Allen Mortgage with a personal
check, dated October 31, 2008, which was after the loan had closed and settled. Allen Mortgage
did not receive the borrowers’ check until November 3, 2008. According to HUD’s
requirements, line 303 on the settlement statement must indicate either the cash required from
the borrower at settlement or cash payable to the borrower at settlement.

Criteria:

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
lines 204–209 on the settlement statement are used for other items paid by or on behalf of the
borrower. Lines 204–209 should be used to indicate any financing arrangements or other new
loan not listed in line 202. Line 303 must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.




                                                 80
FHA case number:             581-3334641

Mortgage amount:             $114,942

Section of Housing Act:               203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:              February 27, 2009

Status: Claim

Payments before first 90-day delinquency reported: Four

Loss to HUD: $119,496

Area of noncompliance:                Funds not paid at closing

Summary:

The borrower’s HUD-1 settlement statement in the FHA case binder and from the title company
identified that $803 was due from the borrower to close on the new refinanced loan. Allen
Mortgage’s financial records showed that $770 was recorded as “BH” (bottom hold) 37 in Allen
Mortgage’s undeposited funds account on March 5, 2009. Additionally, its records identified an
adjustment on March 9, 2009, that increased the amount in its receivables account to $33. The
increase was called “underpaid bottom hold” ($33 + $770 =$803).

Allen Mortgage’s financial records did not indicate that the borrower paid the funds that were
due at closing. However, the borrower provided Allen Mortgage with a check, dated March 4,
2009, in the amount of $770 after the loan had closed and settled. HUD’s requirements state that
line 303 on the settlement statement must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

Criteria:

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
line 303 on the settlement statement must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.


37
     According to Allen Mortgage, a bottom hold check represents the amount that the borrower paid to close the loan.

                                                          81
FHA case number:      151-8704674

Mortgage amount:      $108,225

Section of Housing Act:       203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:      May 31, 2008

Status: Claim

Payments before first 90-day delinquency reported: 12

Loss to HUD: $107,103

Area of noncompliance:        Skipped payment

Summary:

The borrowers’ previous loan was due for the May 1, 2008, payment at the time of refinancing.
The HUD-1 settlement statement in Allen Mortgage’s loan files indentified that the borrowers
were required to pay $878 to close on the new loan. However, the HUD-1 settlement statement
in the FHA case binder showed that the borrowers did not need funds to close. The borrowers
made two payments to Allen Mortgage, using a credit card, in the amounts of $500 on July 1,
2008, and $196 on July 3, 2008. Thus, the borrowers charged a total of $696 to their credit card
in July 2008 to pay a portion of the funds that were supposedly due at closing after the loan had
closed and settled.

According to HUD’s requirements, borrowers are not allowed to skip payments, and lenders may
not advance cash to borrowers for funds to close.

Criteria:

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
line 303 on the settlement statement must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.

HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is

                                                82
either to make the payment when it is due or bring the monthly mortgage payment to settlement.
When the new mortgage amount is calculated, FHA does not permit the inclusion of any
mortgage payments skipped by the homeowner in the new mortgage amount.

Paragraph 2-10(D) states that funds can be borrowed for the total required investment as long as
satisfactory evidence is provided that the funds are fully secured by investment accounts or real
property, other than the property being purchased. An independent third party must provide the
borrowed funds. The lender or other interested third party may not provide such funds.




                                               83
FHA case number:      291-3690893

Mortgage amount:      $97,459

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:     April 29, 2008

Status: Active

Payments before first 90-day delinquency reported: 25

Unpaid principal balance:    $91,713

Area of noncompliance:       Skipped payment

Summary:

The borrower’s new loan closed April 23, 2008 and settled on April 29, 2008. However, Allen
Mortgage’s underwriter approved the loan on April 25, 2008. The borrower’s mortgage payoff
statement showed that the loan was due for the April 1, 2008, payment. The HUD-1 settlement
statement indicated that the borrower did not have to pay funds to close. Additionally, Allen
Mortgage’s loan files did not contain documentation to determine whether the borrower made
the mortgage payment due on the previous loan at or before closing as required by HUD.

Criteria:

HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is
either to make the payment when it is due or bring the monthly mortgage payment to settlement.
When the new mortgage amount is calculated, FHA does not permit the inclusion of any
mortgage payments skipped by the homeowner in the new mortgage amount.




                                               84
FHA case number:      493-8933804

Mortgage amount:      $95,917

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:     January 31, 2009

Status: Active

Payments before first 90-day delinquency reported: 18

Unpaid principal balance:    $90,939

Area of noncompliance:       Skipped payment

Summary:

The loan closed on January 21, 2009, but was approved by the underwriter on January 27, 2009.
The borrower’s HUD-1 settlement statement in the FHA case binder indicated that the borrower
did not need funds to close. The borrower’s HUD-1 settlement statement in Allen Mortgage’s
loan files indicated that the borrower needed $742 to close on the newly refinanced loan. The
borrower’s signature on the HUD-1 settlement statement in Allen Mortgage’s investor files was
misspelled, and this HUD-1 settlement statement also required the borrower to pay $742 at
closing.

The borrower’s loan file contained a notarized promissory note executed between the borrower
and Allen Mortgage in which the borrower promised to reimburse Allen Mortgage $742 for
paying the borrower’s mortgage payment due on February 1, 2009, under the previous loan.
Since the loan closed in January 2009, the first payment would not have been due on the new
mortgage until March 1, 2009. Further, the borrower’s loan file contained a collection letter,
dated December 22, 2009, stating that the borrower owed $742 for the downpayment and $160
to start the borrower’s escrow account. However, as of the date of the letter, the borrower had
paid Allen Mortgage only $371 on February 27, 2009. The collection letter further stated that if
Allen Mortgage did not hear from the borrower by January 5, 2010, the borrower’s account
balance would be forwarded to a collection company, and a lien will be placed on the borrower’s
property.

According to HUD’s requirements, borrowers are not permitted to skip payments, lenders may
not provide funds to borrowers for cash to close, and borrowers may not secure funds to close
when the real property being financed is used for collateral.

Criteria:



                                                85
Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
line 303 on the settlement statement must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.

HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is
either to make the payment when it is due or bring the monthly mortgage payment to settlement.
When the new mortgage amount is calculated, FHA does not permit the inclusion of any
mortgage payments skipped by the homeowner in the new mortgage amount.

HUD Handbook 4155.1, REV-5, paragraph 2-10(D), states that funds can be borrowed for the
total required investment as long as satisfactory evidence is provided that the funds are fully
secured by investment accounts or real property, other than the property being purchased. An
independent third party must provide the borrowed funds. The lender or other interested third
party may not provide such funds.




                                               86
FHA case number:      151-8570534

Mortgage amount:      $92,977

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:     February 28, 2008

Status: Active

Payments before first 90-day delinquency reported: Six

Unpaid principal balance:    $87,256

Area of noncompliance:       Funds not paid at closing

Summary:

The borrower’s new streamline refinanced loan closed on February 19, 2008, and settled on
February 28, 2008. The borrower’s mortgage payoff statement, dated February 12, 2008,
indicated that the borrower’s mortgage payment due on February 1, 2008, was not paid. The
HUD-1 settlement statement identified that $737 was financed for the borrower as a “March
Payment Hold Check” on line 206 of the HUD-1 settlement statement and that the borrower
needed $1,670 to close the loan. According to the borrower’s mortgage payoff statement, the
borrower’s mortgage payment was not due since the borrower had made all payments under the
mortgage to the previous servicer. As a result, the first payment was not due on the new loan
until April 1, 2008, and there should not have been a payment due for the month of March 2008.

Additionally, according to the Allen Mortgage’s wire calculation sheet in the borrower’s loan
file, it anticipated collecting $737 to establish a new escrow account and $1,670 as the HUD-1
bottom line 303 payment, which was due at closing from the borrower. A review of the
borrower’s payment documentation in the loan file showed that the borrower paid Allen
Mortgage with two personal checks. The first check for $1,670 was dated March 29, 2008, and
the second check for $737 was dated March 26, 2008. Therefore, the borrower did not pay the
funds needed to close until after the loan closed and settled.

According to HUD’s requirements, line 303 on the settlement statement must indicate either the
cash required from the borrower at settlement or cash payable to the borrower at settlement.

Criteria:

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
lines 204–209 on the settlement statement are used for other items paid by or on behalf of the
borrower. Lines 204–209 should be used to indicate any financing arrangements or other new

                                              87
loan not listed in line 202. Line 303 must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.




                                                88
FHA case number:      011-5930328

Mortgage amount:      $103,573

Section of Housing Act:       203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:      July 31, 2008

Status: Claim

Payments before first 90-day delinquency reported: Four

Loss to HUD: $44,193

Area of noncompliance:        Skipped payment

Summary:

The new loan closed on July 11, 2008, was approved by the underwriter on July 28, 2008, and
settled on July 31, 2008. The borrower’s mortgage payoff statement, dated July 8, 2008, showed
that the loan was due for the July 1, 2008, payment. The borrower’s HUD-1 settlement
statement showed that the borrower received $400 cash back at closing. The settlement
statement also contained a description of a payment in the amount of $781 (“Aug Paycheck from
borrower”) that was due from or on behalf of the borrower on line 205.

According to Allen Mortgage, the amount on line 205 should have been on line 303 (cash to or
from borrower) and netted against the $400 that was due to the borrower at closing. Allen
Mortgage’s loan file did not contain documentation to support that the borrower made the
payment due on July 1, 2008, before or at closing. Further, according to the title company’s
ledger, the borrower received $400 back at closing on July 31, 2008, when the loan settled.
However, in reviewing Allen Mortgage’s financial documentation, we determined that the
borrower paid Allen Mortgage $781 using a personal check on August 15, 2008, after the loan
closed and settled.

According to HUD’s requirements, borrowers are not permitted to skip payments when
refinancing, and lenders are not allowed to advance funds to borrowers for cash to close.

Criteria:

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
lines 204–209 on the settlemetn statement are used for other items paid by or on behalf of the
borrower. Lines 204–209 should be used to indicate any financing arrangements or other new
loan not listed in line 202. Line 303 must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

                                                89
HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.

HUD Handbook 4155.1, REV-5, paragraph 2-10(D), states that funds can be borrowed for the
total required investment as long as satisfactory evidence is provided that the funds are fully
secured by investment accounts or real property, other than the property being purchased. An
independent third party must provide the borrowed funds. The lender or other interested third
party may not provide such funds.

HUD Handbook 4155.1, REV-1 paragraph 1-10(E), states that lenders are not permitted to allow
borrowers to skip payments. The borrower is either to make the payment when it is due or bring
the monthly mortgage payment to settlement. When the new mortgage amount is calculated,
FHA does not permit the inclusion of mortgage payments skipped by the borrower in the new
mortgage amount. For example, a borrower whose mortgage payment is due June 1 and who
expects to close the refinance before the end of June is not permitted to roll the June mortgage
payment into the new FHA loan amount.




                                               90
FHA case number:      581-2884051

Mortgage amount:      $167,084

Section of Housing Act:       203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:      October 30, 2007

Status: Active

Payments before first 90-day delinquency reported: Not applicable

Unpaid principal balance      $156,824

Area of noncompliance:        Skipped payment

Summary:

The borrower’s mortgage payoff statement indicated that the borrower had not met the mortgage
payment due on October 1, 2007, as of October 31, 2007. The HUD-1 settlement statement
prepared by the title company indicated that the borrower needed $1,326 to the close on the new
loan. However, the HUD-1 settlement statement prepared by the closing agent did not state that
the borrower was required to pay funds to close the loan. The borrower signed the closing
documents on October 25, 2007, and was provided a 3-day recission period. The last day the
borrower could have withdrawn from the loan agreement was October 29, 2007. Allen Mortgage
did not obtain the borrower’s mortgage payoff statement until October 31, 2007, which was after
the borrower’s rescission period. The borrower’s settlement statement was modified to include a
downpayment amount at that time.

The borrower’s loan file did not contain documentation showing that the borrower brought the
final payment due on the previous loan to closing. Further, Allen Mortgage’s wire calculation
sheet indicated a correction to the new loan’s settlement disbursement; therefore, the borrower
had to pay $1,085 to close the loan. According to Allen Mortgage’ financial records, the
borrower paid Allen Mortgage using a personal check, dated November 26, 2007, in the amount
of $1,567. In Allen Mortgage’s ledger, the payment described as “bottom hold check” was
debited to undeposited funds and credited from the accounts receivable on January 2, 2008.

According to HUD’s requirements, borrowers are not permitted to skip payments when
refinancing, and line 303 of the settlement statement must indicate the cash required from the
borrower at settlement.

Criteria:




                                                91
Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
lines 204–209 on the settlement statement are used for other items paid by or on behalf of the
borrower. Lines 204–209 should be used to indicate any financing arrangements or other new
loan not listed in line 202. Line 303 must indicate either the cash required from the borrower at
settlement or cash payable to the borrower at settlement.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premium, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.

HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is
either to make the payment when it is due or bring the monthly mortgage payment to settlement.
When the new mortgage amount is calculated, FHA does not permit the inclusion of any
mortgage payments skipped by the homeowner in the new mortgage amount.

HUD Handbook 4155.1, REV-5, paragraph 2-10(D), states that funds can be borrowed for the
total required investment as long as satisfactory evidence is provided that the funds are fully
secured by investment accounts or real property, other than the property being purchased. An
independent third party must provide the borrowed funds. The lender or other interested third
party may not provide such funds.




                                               92
FHA case number:      483-4074768

Mortgage amount:      $122,338

Section of Housing Act:      203B (Mutual Mortgage)

Loan purpose: Streamline refinance

Date of loan settlement:     March 30, 2009

Status: Active

Payments before first 90-day delinquency reported: Not applicable

Unpaid principal balance:    $115,781

Area of noncompliance:       Skipped payment

Summary:

Allen Mortgage’s underwriter approved the loan on March 17, 2009. The loan closed on March
13, 2009, and settled on March 30, 2009. Therefore, the loan was approved after it had closed.
The borrower’s HUD -1 settlement statement in the FHA case binder showed on line item 205 an
item, described as “MARCH PMT REIMBURSEMENT CHECK,” for $877.

According to the borrower’s mortgage payoff statement, the borrower had made all of the
mortgage payments due on the previous loan including the payment due March 1, 2009. Thus,
there was not a payment due for the month of March 2009. According to Allen Mortgage, line
item 205 on the settlement statement and the corresponding amount should have been on line
303 of the statement as cash to be received from the borrower at closing.

Allen Mortgage’s loan files showed that the borrower paid $887 using a personal check, dated
April 10, 2009, to Allen Mortgage after the loan closed and settled. According HUD’s
requirements, line 303 of the settlement statement must indicate the cash required from the
borrower at settlement.

Criteria:

Regulations at 24 CFR Part 3500, Real Estate Settlement Procedures Act, appendix A, state that
lines 204–209 are used for other items paid by or on behalf of the borrower. Lines 204–209
should be used to indicate any financing arrangements or other new loan not listed in line 202.
Line 303 must indicate either the cash required from the borrower at settlement or cash payable
to the borrower at settlement.

HUD Handbook 4155.1, REV-5, paragraph 1-9, states that for each transaction, the lender must
estimate the settlement requirements to determine the cash required to close the mortgage

                                               93
transaction. The difference between the amount of the FHA-insured mortgage, excluding any
upfront mortgage insurance premiums, and the total cost to acquire the property, including these
expenses, determines the cash needed for closing a loan eligible for FHA mortgage insurance.

HUD Handbook 4155.1, REV-5, paragraph 1-10E, states that skipped payments are not
acceptable. Lenders are not permitted to allow borrowers to skip payments. The borrower is
either to make the payment when it is due or bring the monthly mortgage payment to settlement.
When the new mortgage amount is calculated, FHA does not permit the inclusion of any
mortgage payments skipped by the homeowner in the new mortgage amount.

HUD Handbook 4155.1, REV-5, paragraph 2-10 (D), states that funds can be borrowed for the
total required investment as long as satisfactory evidence is provided that the funds are fully
secured by investment accounts or real property, other than the property being purchased. An
independent third party must provide the borrowed funds. The lender or other interested third
party may not provide such funds.




                                               94
